<html>
<title> - NOMINATIONS OF BRIG. GEN. ALLISON HICKEY TO BE UNDER SECRETARY FOR BENEFITS AND STEVE MURO TO BE UNDER SECRETARY FOR MEMORIAL AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 112-14]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-14
 
  NOMINATIONS OF BRIG. GEN. ALLISON HICKEY TO BE UNDER SECRETARY FOR 
  BENEFITS AND STEVE MURO TO BE UNDER SECRETARY FOR MEMORIAL AFFAIRS, 
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

       Printed for the use of the Committee on Veterans' Affairs


        Available via the World Wide Web: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
66-288                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                             April 6, 2011
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     3
Tester, Hon. Jon, U.S. Senator from Montana......................     5
Moran, Hon. Jerry, U.S. Senator from Kansas......................     5
Begich, Hon. Mark, U.S. Senator from Alaska......................    66
Brown, Hon. Scott, U.S. Senator from Massachusetts...............    68
Webb, Hon. Jim, U.S. Senator from Virginia.......................    70

                               WITNESSES

Hickey, Brig. Gen. Allison A., USAF (Ret.), nominee to be Under 
  Secretary for Benefits, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs.................................     7
    Prepared statement...........................................     8
    Response to prehearing questions submitted by Hon. Patty 
      Murray.....................................................    10
    Questionnaire for Presidential nominees......................    20
    Letter from the Office of Government Ethics..................    32
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    33
Muro, Steve L., nominee to be Under Secretary for Memorial 
  Affairs, National Cemetery Administration, U.S. Department of 
  Veterans Affairs...............................................    34
    Prepared statement...........................................    36
    Response to prehearing questions submitted by Hon. Patty 
      Murray.....................................................    37
    Questionnaire for Presidential nominees......................    40
    Letter from the Office of Government Ethics..................    57
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    58


  NOMINATIONS OF BRIG. GEN. ALLISON HICKEY TO BE UNDER SECRETARY FOR 
  BENEFITS AND STEVE MURO TO BE UNDER SECRETARY FOR MEMORIAL AFFAIRS, 
                  U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m., in 
room 418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Webb, Tester, Begich, Isakson, 
Brown of Massachusetts, and Moran.

       OPENING STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning and welcome to today's 
hearing to consider nominations of Brigadier General Allison A. 
Hickey to be Under Secretary for Benefits and Steve Muro to be 
Under Secretary for Memorial Affairs.
    Before we begin, I do want to make one quick announcement 
about a step this Committee is taking to both embrace new 
technology and save Committee funds on those endless stacks of 
paper that we get on our desk that we all know about.
    Today marks the first Committee hearing that Members will 
be using tablets like this. Everyone of us has one up here so 
that we can digitally reduce all of those piles of paperwork 
and have it available for our Members and our staff as well.
    As Chairman I believe it is important, particularly at a 
time when we are counting on the VA to make some big overdue 
changes in terms of IT, that we, as the Committee, are also 
taking whatever steps we can to improve and share information.
    So we are very excited about this step even while we will 
all try to get used to it. I am told that we are the first 
Committee in the Senate to make these changes, and I hope it 
will be the first of many for this Committee that is really 
aimed at improving our hearings and access to information and 
resources for our veterans.
    And we will be training our Committee Members, Senator 
Isakson, how to use these tablets. But it is going to be a 
great change for us, and we are looking forward to having them 
help save money for the Senate too.
    General Hickey, thank you for being here and welcome. I 
want to say at the outset that I commend you for accepting this 
nomination because, if confirmed, you will have a tremendously 
difficult job in front of you. Without question, I believe that 
the VA disability claims system is broken.
    It is broken when we have veterans waiting an average of 
190 days for a claim to be adjudicated. It is broken when we 
have nearly one million veterans currently caught in a backlog 
that continues to climb, and it is broken when our veterans 
have simply lost faith in the system.
    If confirmed, you will you be looked upon to fix this 
broken system and to reduce the skyrocketing backlog of claims 
that it has produced. You will be asked to think boldly about a 
problem that has vexed your predecessors. You will need to move 
quickly on innovative solutions, including viable technological 
changes, if we are going to begin to turn this problem around. 
It will not be easy. In fact, just last month I got a first-
hand look at the problem that you face.
    I went out to Seattle to go to the Seattle Regional VA 
Office, and I saw the impact that paper alone has on an 
employee's ability to process a claim. I saw these huge files 
that were as thick as a phone book and completely devoid of any 
organization whatsoever that made it impossible to find 
anything in them, and even harder to move to a paperless file. 
I heard about claims that should be getting expedited treatment 
but that were not.
    In fact, it took the Seattle Regional Office nearly 9 
months to expedite the claim for a veteran that was terminally 
ill with cancer, and that veteran's claim was finally granted, 
3 days after the veteran died.
    That is totally unacceptable, and it has to change. Our 
veterans, especially those who are most vulnerable, those who 
are terminally ill or homeless or in danger of becoming 
homeless, deserve better than the way that some VA offices are 
treating them, and I know from my many years on this Committee 
this problem is not in just one pocket of the country. It is 
widespread.
    The problems I saw in Seattle are not just an isolated 
incident. It is one example of a problem that has plagued the 
VA. And it is a problem that is growing.
    Although the VA knew that more Agent Orange claims would be 
coming into the system, the claims have still overwhelmed the 
new case workers that Congress provided funding to hire.
    The VA knows more and more OIF and OEF veterans will be 
making claims, and we need assurance that VA is preparing for 
this influx of new claims.
    General Hickey, while I am impressed by the credentials you 
bring to this job, I have to believe this is a job like no 
other you have had before and a challenge that you may not face 
again. But it is one of the biggest we have to meet.
    If confirmed, I look forward to working closely with you to 
address this issue because we cannot allow our veterans to wait 
for the benefits they have earned any longer.
    Mr. Muro, welcome, thank you to you for joining with us 
today.
    Mr. Muro, if confirmed, you will be responsible for 
maintaining the high-level of service and customer satisfaction 
in the National Cemetery Administration. Obviously, over the 
last year, and again last week, we have read with horror about 
the disgraceful management of Arlington National Cemetery.
    Unorganized records and sloppy management have led to a 
tragedy not only for the families of servicemembers buried on 
those hallowed grounds but for our country as a whole. We must 
get Arlington on track.
    Arlington must become known as a place of comfort to 
families, efficiency of administration, and a model of customer 
service equal to that of VA's National Cemeteries, which you 
will be tasked with managing.
    I look forward to hearing from you about what we can do to 
make sure that these management failures never happen at our VA 
cemeteries.
    I also look forward to discussing the other challenges you 
will face, including meeting the unprecedented need for 
additional capacity in heavily populated urban areas.
    As a housekeeping note, after the Members give their 
opening statements, I will swear in our nominees, then 
introduce them. I will then ask each of you to introduce any 
friends or families that are with you today. Our nominees will 
then give their opening statements, then Members will have a 
chance to ask questions.
    So again, General Hickey, thank you very much.
    Mr. Muro, thank you for being here. I look forward to your 
testimony.
    With that, I turn it over to Senator Isakson, who is 
standing in for Senator Burr today.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Madam Chairman.
    Today, we will discuss the qualifications of the nominees 
to serve in two demanding roles at the Veterans Administration. 
General Allison Hickey and Steve Muro, both of whom I have met 
and enjoyed very much meeting. I appreciate, as the Chairman 
said, their commitment to the job ahead of them.
    General Hickey, the Veterans Benefits Administration (VBA) 
provides a range of benefits and services to help improve the 
lives of veterans and their families and their survivors. But, 
in some areas, VBA struggles to deliver effective benefits and 
services without hassles or delays. Primarily, VBA's disability 
claims processing, which the Chairman has already mentioned, 
has been criticized for many years for large backlogs, long 
delays, and inaccurate decisions. And the problems are expected 
to get even worse with the volume of veterans returning.
    Between 2009 and 2012, the number of pending claims is 
projected to more than double, and the average time it takes to 
complete a claim is expected to increase by nearly 70 days. 
Getting this situation under control has to be your top 
priority.
    To that end, VA has a number of IT solutions and other 
initiatives underway. But we must make sure VA has a realistic 
and comprehensive plan to pull these efforts together so there 
will be lasting improvements in VA's ability to provide 
accurate and good services. Veterans in Georgia and across the 
country deserve no less.
    Another challenge is the large difference in service 
provided by VA's regional offices around the country. Some 
consistently meet expectations, while others struggle. As the 
VFW put it, ``The real question is why these vast differences 
exist between regional offices? Is it management? Is it 
training? Or is it leadership?'' We need answers to those 
questions and, more importantly, we need solutions.
    VA is also working with the Department of Defense to roll 
out an Integrated Disability Evaluation System, which allows 
injured servicemembers to find out what benefits they will get 
from both agencies before being medically discharged.
    And I might interject--I am reading a prepared statement 
for Senator Burr--but I wanted to interject a statement here, 
if I might.
    I commend General Schumacher's work in the seamless 
transition from active DOD medical health care to veterans 
health care that has taken place at the Augusta Charlie Norwood 
Center. That transition has helped veterans to transfer from 
DOD care to veterans' care with a seamless system where they do 
not fall between the cracks, and I commend General Schumacher 
on what he has done. I hope you find him, General Hickey, to be 
of help to you in your transition.
    General Hickey, if confirmed, these are just a few of the 
pressing issues you would find ahead of you at the Veterans 
Benefits Administration. I look forward to discussing your 
plans to tackle them, and I again thank you for your 
willingness to serve--I am willing to help in any way I can to 
facilitate and make the job as easy as possible.
    Mr. Muro, thank you for your service to the country and 
your willingness to take on a very, very important duty. As you 
know well, VA's National Cemetery Administration has the solemn 
mission of honoring and memorializing our Nation's fallen 
heroes. For veterans of every generation, it is the aim of our 
grateful Nation to provide a final resting place worthy of 
their sacrifices and to respectfully tend to their grieving 
loved ones.
    As shown in the recognition NCA has received for high 
levels of customer service, NCA has been diligently fulfilling 
that role. But, as the Chairman mentioned, the issues that have 
come to light at Arlington National Cemetery should remind all 
of us how critical it is to remain vigilant so that veterans 
and their families receive the top-notch service they deserve, 
now and in the future.
    Mr. Muro, I look forward to serving with you. You will have 
the pleasure of working with a former U.S. Senator from 
Georgia, now head of the Battle Monuments Commission, Senator 
Max Cleland, who is a dear personal friend of mine. My 
predecessor in this seat, Zell Miller, was actually a board 
member of the Battle Monuments Commission for a while. So, we 
have a long tradition in Georgia.
    We recently opened--and you were there, if I am not 
mistaken--the new veterans cemetery on the mountaintop in north 
Georgia, which is probably, of all that I have seen around the 
country, the most breathtaking and beautiful cemetery that we 
have in the entire VA.
    So thank you for your willingness, Mr. Muro.
    General Hickey, that you for yours.
    And Madam Chairman, I yield back the remainder of my time.
    Chairman Murray. Thank you very much.
    If any of our Members have an opening statement, if you 
make it real quick, we can get to our nominees.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I will be quick.
    Thank you, Madam Chair, and thank you, Senator Isakson, for 
your comments. I will not be repetitive, but I would like to 
associate myself with both of them.
    I want to thank you guys for being here. I want to thank 
you for your willingness to serve. I will tell you that last 
week General Shinseki was in front of the Appropriations 
Committee. Mr. Muro, you were there too. Three of the six of 
his top people were not confirmed at that point in time but 
were on that panel.
    I think it is incumbent upon the Administration to put good 
people in front of us in a timely manner. I think it is 
incumbent upon us to get you confirmed in a timely manner, and 
I look forward to your testimony and your confirmation.
    Thank you.
    Chairman Murray. Thank you very much.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Madam Chair, thank you very much. I am very 
honored to be a Member of the Senate Veterans' Affairs 
Committee. I served for 14 years in the House as a Member of 
that companion Committee, and there is no group of Americans I 
hold in higher regard than those who have served our country.
    I am pleased to see that we have such high-quality nominees 
and look forward to developing a good working relationship with 
you on behalf of the 250,000 veterans in Kansas and those all 
across the country.
    I thank you for your military service to our country, and 
thank you for your willingness to serve others who have served.
    Thank you.
    Chairman Murray. Thank you very much.
    Under the rules of this Committee, the testimony of all 
Presidential nominees appearing before the Committee shall be 
taken under oath.
    So, General Hickey and Mr. Muro, will you now stand for the 
administration of the oath.
    Do you solemnly swear that the testimony you are about to 
give before the Senate Committee on Veterans' Affairs will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    General Hickey. Yes.
    Mr. Muro. Yes.
    Chairman Murray. Thank you very much.
    With that, I will introduce both of our nominees and turn 
to them for their opening statements.
    Each of these nominees, if confirmed, will play an integral 
role in the overall management and day-to-day operation of the 
VA. So I am delighted to have the opportunity to have you 
before us today.
    General Hickey is a 27-year veteran of the U.S. Air Force, 
active National Guard and Reserve. She is also a graduate of 
the U.S. Air Force Academy, class of 1980, the first class to 
include women.
    She has served as a pilot and aircraft commander and led 
the Air Force's Future Total Force Office and served as the 
Assistant Deputy Director for Air Force strategic planning, 
leading one of the largest mission and culture change efforts 
the Air Force has ever gone through.
    She currently serves as a human capital management 
executive for Accenture and has led a team focused on thousands 
of personnel actions every day, ranging from recruitment to 
retirement.
    Mr. Muro is a Vietnam veteran who served in the U.S. Navy 
from 1968 to 1972, beginning his career with the VA as a 
maintenance mechanic at the West Los Angeles VA Hospital in 
1975, joining the National Cemetery Administration in 1978.
    Over the next 30 years, he moved up through the ranks in 
progressively more responsible positions, working in cemeteries 
nationwide. As Acting Director and then Director of the Office 
of Field Programs from 2002 through 2008, Mr. Muro created a 
number of proactive programs that have improved the quality of 
cemetery administration to the high level in place today.
    In 2008, he became the Deputy Under Secretary for Memorial 
Affairs, and, in 2009, he became the Acting Under Secretary.
    With that, General Hickey, do you have any family or 
friends you would like to introduce before we do opening 
statements?
    General Hickey. Thank you, Chairman Murray, for the 
introduction. I would like to introduce my family who is here 
today, beginning with my father, Lieutenant General William J. 
Hilsman, behind me here, who was a career Army officer and also 
a Vietnam veteran himself.
    My mother, Mrs. Jean Hilsman, is a past president of the 
National Military Family Association and DOD's first family 
policy office director.
    My husband, Colonel Rob Hickey, is a 30-year veteran 
himself and continues his service to the government working in 
the Office of the Director of National Intelligence.
    My oldest son, Tyler Hickey, graduates from James Madison 
University in May. My daughter, Chelsea Hickey, graduates from 
Virginia Tech in May, and my youngest son, Michael Hickey, is 
our ninth grader and just completing his Eagle Scout grade.
    With me also in the room are my sisters, Mrs. Karen Paul 
and Mrs. Donna Link, and their husbands, Lieutenant Colonel 
retired Skip Paul and Wesley Link, and my brother Bill Hilsman.
    Chairman Murray. OK. Mr. Muro.
    Mr. Muro. Thank you, Madam Chairman.
    I would like to introduce my family: Dr. Linda Johnson and 
Amanda Muro. Also I would like to acknowledge my son, Steve; my 
daughter-in-law, Rebecca; and my grandson, Stevie, who are out 
in California.
    I would also like to acknowledge some of the NCA colleagues 
of mine and the Honorable William Tuerk.
    Thank you.
    Chairman Murray. That explains the jammed audience today. 
Very good.
    Thank you both very much for appearing before the 
Committee.
    General Hickey, we are going to start with you and your 
opening statement.

STATEMENT OF BRIGADIER GENERAL ALLISON A. HICKEY, USAF (RET.), 
 NOMINEE TO BE UNDER SECRETARY FOR BENEFITS, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    General Hickey. Thank you, Chairman Murray.
    Chairman Murray, Ranking Member Burr, distinguished Members 
of the Committee, good morning and thank you for the 
opportunity to appear before you today.
    I am deeply honored that President Obama and Secretary 
Shinseki have nominated me to join their leadership team as 
they transform the Department of Veterans Affairs to meet the 
emerging challenges of the 21st century.
    I am eager for the opportunity to add my leadership, 
passion, and commitment to their efforts to continue to repay 
the debt of honor owed to the men and women, and their 
families, who have borne the battle.
    I still remember the day in November 2009, when I heard 
Secretary Shinseki's inspiring remarks to thousands of military 
leaders about his vision for a VA that is people-centric, 
results-driven and forward-looking.
    I heard his call to action to find an integrated approach 
that includes well-trained people, efficient and effective 
processes and proven new technologies all to deliver benefits 
and care for a changing population of veterans who bring 
increasingly complex needs to VA.
    He spoke with compassion, conviction, and confidence that 
ignited my desire to again serve my country and shape my 
journey to this nomination hearing today. I humbly present 
myself to you today, bringing a deep commitment to veterans and 
a strong desire to join Secretary Shinseki's efforts to make 
bold and comprehensive changes that transform VA for the 21st 
century.
    Before I continue, I want to recognize the over-35 years of 
service to veterans by the Acting Under Secretary for Benefits, 
Michael Walcoff, who is here today. Starting with VA as a 
claims examiner in Philadelphia in 1974, he culminates his 
distinguished career leading the Veterans Benefits 
Administration.
    I am also deeply appreciative of the presence here today of 
our Veterans Service Organizations. If confirmed, I intend to 
continue VA's close collaboration with them as partners.
    If confirmed as the Under Secretary for Benefits, I would 
be responsible for administering vital programs that provide 
support for veterans, their families, and survivors. Each 
program and benefit delivered can mean the difference between a 
roof over their heads, a college education, or a home that is 
retrofitted to accommodate a disability or a world without that 
support.
    As a veteran myself, I have recent firsthand experience in 
transitioning to veteran status. As a result, I will never lose 
sight of the experiences of all our veterans and their 
families. This includes our National Guard and Reserve, who 
have honorably responded to their country's call in incredibly 
high numbers over the last decade.
    As a woman veteran, I also recognize the growing population 
of women who have served their Nation admirably and are now 
seeking VA health care and benefits in record numbers. I 
understand we need a VA system that meets their needs, 
something I know is a priority for Secretary Shinseki and this 
Committee.
    For over 30 years in government, military, and industry, 
including 17 years of leadership positions in DOD, I have 
worked in strategic and transformation planning, program 
implementation and organizational management.
    I spent over 5 years in the Air National Guard's 
productivity and quality office, establishing a culture of 
process improvement for the organization.
    I spent more than 7 years in the Air Force strategic 
planning office, where I led one of the largest mission and 
culture change efforts since the inception of that department, 
which affected more than 140 new units, and their new 
capabilities and moved billions of dollars to establish those 
new capabilities.
    My recent industry experience includes a focus on areas 
directly related to VBA's core mission, including transactional 
business operations, customer relationship management, and 
experience with information technology systems that provide 
transparency, increase accountability, and speed the delivery 
of services to customers.
    I believe that my past experience makes me highly qualified 
to manage the complexities and challenges of the claims 
transformation efforts currently underway at VBA, as well as 
other areas vital to our veterans' benefits.
    If confirmed, eliminating the disability claims backlog and 
accomplishing the Secretary's goal of having no veteran wait 
more than 125 days for a quality decision with a 98 percent 
accuracy rate would be my central focus.
    I have first-hand experience building and implementing 
transformational efforts, have focused on integrated solutions 
of people, process, and technology necessary to accomplish 
large complex goals.
    If confirmed as Under Secretary for Benefits, I am 
committed to working with this Committee, the Congress more 
broadly, the veteran services organizations, the dedicated 
employees at VBA and other stakeholders to ensure that the VBA 
provides timely and quality benefits and services to America's 
heroes.
    Thank you for the opportunity to appear before you today. I 
look forward to answering any questions you might have.
    [The prepared statement of General Hickey follows:]

   Prepared Statement of Brig. Gen. Allison A. Hickey (Ret.), USAF, 
     Nominee to be Under Secretary for Benefits, Veterans Benefits 
          Administration, U.S. Department of Veterans Affairs

    Chairman Murray, Ranking Member Burr, distinguished Members of the 
Committee: Good morning and thank you for the opportunity to appear 
before you today.
    I am deeply honored that President Obama and Secretary Shinseki 
have nominated me to join their leadership team as they transform the 
Department of Veterans Affairs (VA) to meet the emerging challenges of 
the 21st century. I am eager for the opportunity to add my leadership, 
passion and commitment to their efforts to continue to repay the debt 
of honor owed to the men and women, and their families who have ``borne 
the battle.'' I still remember the day in November 2009, when I heard 
Secretary Shinseki's inspiring remarks to thousands of military leaders 
from all 54 States and Territories and the District of Columbia, about 
his vision for a Department of Veterans Affairs that is people-centric, 
results-driven and forward-looking. I heard his call to action to find 
an integrated approach that includes well-trained people, efficient and 
effective processes and proven new technologies all to deliver benefits 
and care for a changing population of Veterans who bring increasingly 
complex needs to VA. He spoke with a compassion, conviction and 
confidence that ignited my desire to again serve my country and shaped 
my journey to this nomination hearing today. I humbly present myself to 
you today--bringing a deep commitment to Veterans and a strong desire 
to join Secretary Shinseki's efforts to make bold and comprehensive 
changes that transform VA for the 21st century.
    Before I continue, I want to briefly introduce my wonderful family 
with me today. They are part of what drives my passion to care for 
Veterans and their families. My father, Lieutenant General (Ret.) 
William J. Hilsman, served as a career Army Officer and is a Vietnam 
Veteran. My mother, Mrs. Jean Hilsman, served as a military mother and 
spouse, the first Director of the Department of Defense Family Policy 
Office and a Past President of the National Military Family 
Association. My husband, Colonel (Ret.) Rob Hickey, is a 30 year 
Veteran, who served as an A-10 and C-130 pilot, Logistics Group 
Commander, and who continues to serve the Nation working in the Office 
of the Director of National Intelligence. And finally and most 
importantly, I am blessed to be the mother of three remarkable 
children--Tyler, Chelsea and Michael. Tyler and Chelsea both graduate 
in May from James Madison University and Virginia Tech respectively, 
both with a focus on public service careers. Soon to be awarded his 
Eagle Scout Rank, Michael is on the same path toward dedicated 
citizenry and service.
    I also want to recognize the over 35 years of service to Veterans 
by the Acting Under Secretary for Benefits, Michael Walcoff. Starting 
with VA as a claims examiner in Philadelphia in 1974, he culminates his 
distinguished career leading over 20,000 dedicated employees of the 
Veterans Benefits Administration (VBA). Working closely with all of VA, 
Veterans Service Organizations, and Congress, he has been instrumental 
in laying critical foundations to ``break the back of the backlog'' and 
pursue other important initiatives that will improve service to 
Veterans.
    I am also deeply appreciative of the presence here today of our 
Veterans Service Organizations. If confirmed, I intend to continue VA's 
close collaboration with them as partners--seeking opportunities to 
continue to enhance our interactions early in the improvement processes 
we explore for VBA. I will call upon their decades of experience and 
knowledge to help find and implement solutions for our Veterans, their 
families and survivors.
    If confirmed as the Under Secretary for Benefits, I would be 
responsible for administering vitally significant programs that provide 
crucial support for Veterans, their families and survivors. Each 
program and benefit VBA delivers is important to those we serve. It can 
mean the difference between a roof over their heads, a college 
education, or a home that is retrofitted to accommodate a disability--
or a world without that support. If confirmed, I will never lose sight 
of the importance of VBA's work on the individual lives of Veterans and 
their families.
    As a Veteran myself, and a military family spouse, I have firsthand 
and recent experience in transitioning to Veteran status. Because of 
this background and my military family upbringing, the concerns of 
Veterans, their families, and survivors are never far from my mind and 
are close to my heart. This includes our National Guard and Reserve and 
their families who have honorably responded to their country's call in 
incredibly high numbers over the last decade and more, serving in Iraq, 
Afghanistan, and operations around the globe and here at home. I have 
the unique experience of serving in all three of the military 
components--Active, National Guard, and Reserve--and, if confirmed, I 
would work to ensure that VBA continues to support each of these groups 
of Veterans. As a woman Veteran, I also recognize the growing 
population of women who have served their Nation admirably and are now 
seeking VA health care and benefits in record numbers. I bring shared 
and unique experiences with this group of dedicated Veterans and an 
understanding that we need a VA system that meets their needs--
something I know is a priority for Secretary Shinseki and this 
Committee.
    For over 30 years in government, military, and industry--including 
17 years of leadership positions in the Department of Defense--I have 
focused on strategic and transformation planning, program 
implementation and organizational management. I have helped develop 
plans for major reorganization, restructuring, and refocusing of large-
scale and complex organizations and programs to enable them to better 
meet their mission.
    I believe that my past experience makes me highly qualified to 
manage the complexities and challenges of the claims transformation 
efforts currently underway, as well as other areas vital to our 
Veterans' benefits. Eliminating the disability claims backlog and 
accomplishing the Secretary's goal of having no Veteran wait more than 
125 days for a quality decision with a 98% accuracy rate would be my 
central focus. I have firsthand experience building and implementing 
transformational efforts that focus on the integrated solution of 
people, process, and technology necessary to accomplish large complex 
goals. I spent over five years in the Air National Guard's Productivity 
and Quality office establishing a culture of process improvement, and 
over seven years in the Air Force Strategic Planning office leading 
major transformation efforts. In my experience with industry, process 
improvement and transformation were key to business performance results 
and client satisfaction levels. The ``right'' mix of focus on an 
integrated approach to people, process, and technology has been at the 
center of much of the work in my career. That is why, if confirmed, I 
am confident that I can lead VBA in delivering better service to 
Veterans.
    In the Air Force, I led one of the largest mission and culture 
change efforts since the inception of that Department. This work 
included leadership and oversight of four divisions covering strategic 
planning, mission development, public and congressional affairs, and 
program and resource implementation. The effort affected more than 140 
new Air Force units and their associated missions, and shifted billions 
of dollars toward new capabilities across the Air Force portfolio. The 
initiative also involved new organizational models for a worldwide 
500,000 person organization including Active Duty, Air National Guard 
and Air Force Reserve units and personnel to create a common Air Force 
policy, mission, and culture. This significant transformation directly 
impacted more than 50,000 members of the Air Force, provided new 
capabilities for the joint war fighter and redesigned the Air Force 
future force structure plan.
    I also bring experience in the private sector in two areas that 
directly relate to VBA's core mission. The first area is human 
resources operations from recruitment to retirement--building and 
retaining a quality workforce. The second area is customer relationship 
management to include call center practices, customer relationship 
management system implementation and other 21st century information 
technology systems that provide transparency, increase accountability 
and speed the delivery of these services to customers.
    It is my firm belief that it is an organization's employees who 
drive the real success that occurs in vital programs. I am committed, 
if confirmed, to making the VBA workforce successful, creating an 
environment that engages them and develops them to their full 
potential.
    If confirmed as Under Secretary for Benefits, I am committed to 
working with this Committee, the Congress more broadly, the Veterans 
Service Organizations, other stakeholders and all of the wonderful 
employees at VBA to ensure VBA provides timely and quality benefits and 
services to America's heroes. Should I be confirmed, I will serve with 
passion and conviction as an advocate on behalf of all of America's 
Veterans.

    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Patty Murray to 
  Brig. Gen. Allison Hickey to be Under Secretary for Benefits, U.S. 
                     Department of Veterans Affairs

    Question 1. Why do you seek this position?
    Response. I still remember the day in November 2009 when I heard 
Secretary Shinseki's inspiring remarks to thousands of military leaders 
from across our country about his vision for a Department of Veterans 
Affairs (VA) that is people-centric, results-driven and forward-
looking. I heard his call to action to find an integrated approach of 
well-trained people, efficient and effective processes and proven new 
technologies all to deliver benefits and care for a changing population 
of Veterans who bring increasingly complex needs to the VA. He spoke 
with a compassion, conviction and confidence that ignited my desire to 
again serve my country and shaped my journey to seek this position. I 
have successfully led major transformation efforts in complex 
environments during my career and I look forward, if confirmed, to the 
opportunity to apply that experience in the Veterans Benefits 
Administration (VBA). I have recent Program Management experience with 
21st Century IT systems that are used by well-trained employees to 
exercise streamlined and documented processes to deliver high 
performing results. I come from a family where service to others is 
part of our DNA. Most importantly, I feel called to advocate for all 
Veterans and their families who sacrifice so much for a safe and secure 
world. Each of these issues and more compel me to seek this position.

    Question 2. What do you believe are the most important problems and 
challenges currently confronting VBA? Which of these problems and 
challenges will you focus on and how do you intend to address them?
    Response. I strongly support the priorities that Secretary Shinseki 
has established as articulated in the Department of Veterans Affairs 
Strategic Plan Refresh FY 2011-2015 and agree with the focus it 
outlines for VBA and all of VA to ``transform the Department to meet 
the emerging challenges of the 21st century, so we may continue to 
repay the debt of honor owed to the men and women, and their families, 
who have ``borne the battle.'''' If confirmed, the four strategic goals 
and integrated objectives will drive my focus to work across VA 
organizational lines to improve the quality and accessibility of 
benefits for Veterans and their families and survivors, as well as 
increase their satisfaction with education, training, and other 
benefits and services. As a person with extensive background in 
strategic planning, the Secretary's approach for tackling these 
opportunities resonates with me. It is clear to me that the number one 
issue facing VBA is the continuing challenges associated with the 
claims backlog. I understand that the claims have grown in both numbers 
and complexity, which drives workload and workforce training issues. My 
previous experience in government and private sector suggests that a 
challenge with this amount of complexity can only be solved with 
improvements to the business processes and integration of appropriate 
technology that allows an organization to fundamentally transform the 
way the work is done and improve the results. Therefore, I believe that 
if confirmed, I would focus on the people, processes and technology 
that will provide VBA the methods to achieve the Secretary's goals of 
eliminating the disability claims backlog by 2015 and ensuring no 
Veteran has to wait more than 125 days for a high quality decision with 
a 98% accuracy rate. I will also focus on preparing the workforce for 
these changes through a focus on training, communication and 
preparation for the various new transformational business processes 
that will become central to their daily operations.

    Question 3. What is your management style? Are you a ``hands-on'' 
manager? Do you rely on significant delegation? Do you seek consensus 
with those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. I am a highly collaborative leader who seeks input from 
both internal and external stakeholders to the maximum extent possible. 
My experience tells me that when you bring all stakeholders into the 
process early, you avoid missteps and build consensus around the 
approach to an issue. I am careful to keep the bias for action on the 
decision, so lengthy processes do not stall the need for timely 
decisions in order to achieve actions that drive results. I also gather 
reliable data as one element of my decision process or the group's 
decision process and watch for trends in the data to inform decisions 
or adjustments to the direction.
    I approach most aspects of my leadership from a ``balanced'' 
approach. I seek solutions that are good for the mission, considerate 
of the people that need to deliver on that mission, and always focused 
on the customer--in this case, if confirmed, the Veterans, their 
families and survivors. I balance my approach to ``hands on'' 
involvement and delegation in the same way. When the situation requires 
little intervention because the organization is delivering customer 
excellence, then I tend to stay abreast of the issues but delegate more 
to the high performing leader. When the situation requires more of my 
engagement because the organization is challenged to deliver, then I 
first ask myself if the barriers to performance are created by 
something I or the leader on the team controls. Does the workforce have 
the resources, tools, guidance, or policy they need to do the job? 
Regardless of the circumstance, I am always willing to ``roll up my 
sleeves'' and assist further until the performance is achieved.
    As a leader I believe that information is a vital resource to 
achieve operational excellence. I believe this information needs to be 
in the hands of those who require it to effectively lead others or 
execute on their job/task. I am a leader who believes in the model of 
``servant leadership'' where taking care of those who do the work on a 
daily basis translates into better performance and higher levels of 
client satisfaction.

    Question 4. Describe how you intend to work with the Secretary and 
two other Under Secretaries. Please also describe how you will work 
with others in the Agency who work directly impacts VBA (e.g. policy 
and planning).
    Response. I hold the utmost respect for Secretary Shinseki, Deputy 
Secretary Gould, Under Secretary Petzel, Acting Under Secretary Muro 
and Chief of Staff Gingrich. If confirmed, I will work closely with 
each of them to raise issues, challenges, and offer assistance in 
solving problems to better serve Veterans. I am excited for the 
opportunity to work with this leadership team, to collaborate and 
coordinate across the department to solve cross-cutting challenges from 
a One-VA perspective, with an understanding of the interdependence of 
the different Administrations, Staff Offices and Organizations within 
VA. In particular, if confirmed, I would closely collaborate with 
Assistant Secretaries Baker and Henze, whose offices of Information and 
Technology and Policy and Planning are key to the success of VBA in 
terms of our leveraging new technology and our coordination with the 
Department of Defense.

    Question 5. In your view, how long should a veteran have to wait to 
have his or her initial claim for compensation adjudicated?
    Response. I am aware that Secretary Shinseki has set goals in this 
area and look forward to working with him, if confirmed, to ensure that 
by 2015, no Veteran has to wait more than 125 days for a decision with 
a 98% accuracy level. If confirmed, I would enter the Under Secretary 
post with the understanding that we will work tirelessly to achieve 
this goal. Veterans deserve a system responsive to their needs and 
ready to deliver the benefits they have earned through their military 
service in the fastest manner with a strong commitment to accuracy. It 
serves no one to achieve a fast decision if it is not our best work. If 
confirmed, I am committed to furthering the important work underway 
toward new paperless processing systems along with business practices 
that will provide our hardworking VBA workforce the 21st Century tools 
they need to serve America's Veterans. I am interested to learn more 
about new rules-based tools and calculators VBA is developing to help 
ensure accuracy while improving on speed.

    Question 6. How do you plan to work with the veterans service 
organizations? Do you anticipate meeting with the VSO representatives 
on a regular basis?
    Response. If confirmed, I plan to work both closely and often with 
the Veterans Service Organizations. If confirmed, I anticipate building 
on the existing substantial efforts VBA has taken to involve these 
knowledgeable and highly experienced organizations early in developing 
initiatives to improve the disability claims process and other areas so 
as to get their candid feedback and recommendations. I look forward to 
building relationships with them and together focusing on a shared 
passion for Veterans, their families and survivors.

    Question 7. Committee staff access to career professionals at VBA 
is critically important as they conduct oversight of the Agency on 
behalf of members. In the past, VBA staffs from all business lines have 
been made available for briefings, questions, and related activities. 
Committee staff view these open channels of communication as vital. Do 
you intend to allow Committee staff the same level of access to VBA 
career employees?
    Response. I agree that open communication with Committee staff is 
vital to the oversight mission of the Senate Committee on Veterans' 
Affairs and I fully support the continued access to VBA leadership and 
staff.

    Question 8. Accurate forecasting of usage of veterans benefits is 
essential in planning for resources to administer those benefits. What 
do you see as the Under Secretary's role in forecasting the need for 
additional staffing resources so that Congress can appropriate those 
resources in a timely manner?
    Response. As in any large enterprise, I believe the role of the 
leader is to ensure the organization has the data, information, and the 
analytical capability to make high quality forecasts that have the 
confidence of those who appropriate the resources. The Under Secretary, 
working in coordination with the Office of the Secretary, must timely 
convey accurate forecasts and resource requirements to Congress. If 
confirmed, I look forward to assessing VBA's capabilities in this area 
and ensuring we fill whatever gaps may exist.

    Question 9. VBA has come under fire for the lack of timeliness of 
its claims processing. While VBA has made progress in improving 
timeliness and accuracy of disability claims processing, further 
improvement is needed. VBA turned its attention to decreasing the 
amount of time it takes to process a claim, but that improvement seems 
to be at the cost of a decrease in the quality of its decisionmaking. 
Do you have any views on how a more balanced approach can be reached?
    Response. I have an extensive background in quality management 
principles and processes and am a strong proponent of training as one 
key element to improve results. It is my belief that there is no 
inherent conflict between speed and quality if employees are supported 
in obtaining the necessary skills through effective training programs 
and decision-support tools. Speed and quality will go hand-in-hand if 
we ensure employees receive the right training and tools, combined with 
efficient business processes and systems that incorporate rules-based 
technologies. I also believe that the ongoing work on the Disability 
Benefits Questionnaires (DBQs) will improve the ``data in'' portion of 
the process. If confirmed, I will work to ensure that the training, 
tools, and systems needed to provide quality and timely decisions are 
available to VBA's claims adjudicators.

    Question 10. Many in the newest generation of veterans are 
technologically savvy. Veterans can submit claims for compensation over 
the Internet. What role do you envision for VA in improving the use of 
technology for the processing of initial applications for compensation 
and to aid in the timeliness and accuracy of claims adjudication?
    Response. Veterans, especially the younger generation, expect to 
have self-service options available to apply for benefits and services 
and to interact with VA on the status of their claims--at a place and 
time of their choosing. Since I have done considerable work in the area 
of customer relationship management, I am most eager to learn more 
about the ongoing development efforts of the Veterans Relationship 
Management (VRM) initiative and VA's plans to integrate VRM with the 
new paperless processing system. In my view, from outside the 
organization, it seems important for VA to optimize client interactions 
and leverage data and information sharing between VRM and the Veterans 
Benefits Management System (VBMS), as well as with the joint VA/DOD 
Virtual Lifetime Electronic Record (VLER) initiative. I believe 
integration of today's technologies and communications channels in the 
claims process will drive major improvements in both timeliness and 
accuracy when combined with streamlined business processes, effective 
training, and appropriate job aids.

    Question 11. For some medical conditions that occur after service, 
the scientific information needed to connect the medical condition and 
the circumstances of service may be incomplete. When information is 
incomplete, Congress or the Secretary of Veterans Affairs has authority 
to presume disabilities and diseases as service-connected for purposes 
of compensation. If confirmed as Under Secretary, what would be your 
approach for recommending whether a presumption is warranted?
    Response. If confirmed as Under Secretary, my approach would be to 
follow the legal requirements established in law to guide any 
recommendations made to the Secretary. If confirmed, providing timely 
compensation and care for our Veterans will always be my top priority 
and I look forward to learning more about the presumptive disability 
authorities under the law.

    Question 12. VA's Vocational Rehabilitation and Employment program 
is one of the smallest, yet most important, programs within the 
Department. It is the linchpin for helping veterans who incur service-
connected disabilities achieve a fulfilling and gainful future. I am 
deeply committed to making sure that this program lives up to its full 
potential, especially when individuals who have sustained serious 
injuries in combat are concerned. What are your thoughts on the role 
that vocational rehabilitation plays in terms of the total 
rehabilitation of an individual recovering from severe combat-related 
injuries?
    Response. I recently had the opportunity to briefly meet with 
Vocational Rehabilitation and Employment (VR&E) leadership to hear 
about this vital employment program for Veterans with disabilities and 
employment handicaps. As you are aware, VR&E's primary mission is to 
assist Veterans prepare for, obtain, and sustain suitable employment. 
In my opinion, every rehabilitation plan must maximize the Veteran's 
current skills and interests, translating their military experience to 
the demands of the civilian labor market to achieve suitable employment 
in a career field. If confirmed, I will ensure that VBA maintains its 
focus on addressing the rehabilitation needs and expectations of 
Veterans with severe combat-related injuries. These Veterans have so 
much to offer our country; we must do all we can to help them succeed.

    Question 13. Through VA's vocational rehabilitation program, VA 
assumes certain responsibilities for the provision of employment 
assistance to veterans who complete a plan of vocational 
rehabilitation. This assistance can take a variety of forms. I am 
concerned that VA cooperate and coordinate with the Department of 
Labor's Veterans' Employment and Training Service so that duplication 
of effort can be minimized. If confirmed as Under Secretary, what will 
you do to involve both DOL and DOD in efforts to ensure that 
employment-related issues are addressed seamlessly and without 
duplication of effort?
    Response. If confirmed as Under Secretary, I will work to enhance 
the relationships VBA currently has with DOL and DOD. It is my hope 
that my previous career in DOD will allow me to leverage those contacts 
and relationships to strengthen coordination. I understand that VR&E 
and DOL work together in a collaborative and cooperative partnership to 
assist Veterans with disabilities secure suitable employment. I will 
also ensure that VR&E continues to work closely with DOL on employment-
related issues and engage in joint discussions with DOD, DOL, and other 
key external stakeholders to ensure that the transition of 
Servicemembers into civilian employment is seamless and non-
duplicative.

    Question 14. Eligibility for VA's vocational rehabilitation program 
requires both a service-connected disability and a clearly defined 
employment handicap, as defined by an impairment of a veteran's ability 
to prepare for, obtain, or retain employment consistent with his or her 
abilities, aptitudes, and interests. Concerns have been expressed that 
in practice, VR&E encourages veterans to take lower paying employment 
vice career-oriented professions. What do you believe can be done to 
address these concerns?
    Response. Now, more than ever, the employment needs of Veterans 
must remain among VBA's top priorities. I understand that many 
separating Servicemembers and Veterans want and need immediate 
employment to ease their transition into civilian life. As such, VBA's 
focus must be to provide services that give Veterans the option to 
accept transitional employment while also planning for their careers, 
thus ensuring long-term stability and upward mobility in line with each 
individual's skills and interests.
    If confirmed, I will make certain that VBA continues to seek new 
and better ways to assist disabled Veterans who are striving to achieve 
employment stability and upward mobility.

    Question 15. Under current policies, there is a protracted period 
of evaluation and multiple reviews of decisions concerning seriously 
disabled veterans seeking independent living services. If confirmed, 
will you look into what steps might be taken to shorten the evaluation 
period and reduce the layers of the review?
    Response. Assisting Veterans with the most severe disabilities is 
of the utmost importance. If confirmed, I will discuss with VR&E 
leadership additional options to shorten the evaluation period, 
streamline processes, and reduce the layers of the review for Veterans 
seeking independent living services.

    Question 16. Under Secretary Shinseki's leadership, VA has gone to 
great lengths to develop and implement a fully electronic claims 
process for GI Bill, and compensation and pension claims. These new 
technologies still require more development and wider adoption. How 
would you use your leadership to ensure the promise of each new 
technology is fully realized?
    Response. My career has provided me with significant background in 
program management and ensuring projects deliver the desired tools on 
time and with proper integration and adoption within an organization. 
If confirmed, I would seek enhancements that put Veterans in control 
where possible, with easy access to information about their claims and 
the capability to communicate with VA offices and receive outreach 
messages through a variety of technologies that match their 
preferences. VA must ensure that the promises of automation are 
executed with a common Veteran-centric focus, and that technological 
innovations are developed to provide maximum return to our Veterans. I 
understand VBA already has a rigorous schedule of regular meetings with 
Veterans Service Organizations at multiple levels to solicit their 
input on process improvements and transformational initiatives such as 
VBMS. This regular interaction and sharing of ideas would remain a high 
priority. To realize the promise of paperless processing and other 
technology enhancements, it is critically important to consult with 
industry experts and work closely with the Department's Office of 
Information and Technology. If confirmed, I would also rely on dialog 
with and input from this Committee as VA refines its strategic 
direction along the road to success.

    Question 17. VBA has had some success in the past with improving 
the efficiency of claims processing by consolidating certain services 
into fewer offices. What are your views on the pros and cons of such 
consolidation?
    Response. Generally I believe that opportunities exist to improve 
service delivery and achieve greater efficiencies through 
specialization and consolidation of processing activities. 
Consolidation can also facilitate the delivery of standardized training 
and quality assurance programs, leading to improved quality and 
decision consistency. With that said, if confirmed, I would want to 
look at any consolidation plans on a case-by-case basis and understand 
the proposed benefits and potential downsides to any changes.

    Question 18. What changes, if any, do you anticipate making to the 
way quality of claims processing is measured at VBA?
    Response. In general, I am a proponent of building quality into a 
process upfront as opposed to assessing quality at the end of the 
development process. I am also a proponent of measuring quality 
throughout a process--especially at critical ``handoff'' stages. While 
I am not in a position at this time to assess the adequacy of the 
methods currently used by VBA to measure quality, I am aware that in 
the compensation and pension area, VBA has a number of methods of 
assessing quality including the Systematic Technical Accuracy Review 
(STAR) program, consistency assessments, site surveys and special 
reviews. If confirmed, I will look at each in depth to determine what, 
if any, changes are appropriate.

    Question 19. Given your background, what areas do you see in which 
VA and DOD can do a better job with collaboration and cooperation so 
that more timely access to benefits can be provided?
    Response. I see great opportunity in the efforts announced by 
President Obama, Secretary Shinseki, and Secretary Gates to create a 
Virtual Lifetime Electronic Record of medical and administrative 
information accessible by both Departments which would significantly 
assist in the disability evaluation process. I am excited by the 
opportunity to further enhance collaboration through initiatives such 
as the Integrated Disability Evaluation System and the eBenefits 
portal--both designed to improve information sharing to the benefit of 
Veterans, family members and survivors. If confirmed, I look forward to 
using my background serving in the DOD, including significant time 
working with the National Guard and Reserve, to further enhance our 
people-centric collaboration and cooperation with DOD.

    Question 20. I am interested in hearing about your views on the 
IOM's report for the VDBC on Evaluation of the Presumptive Disability 
Decision-Making Process for Veterans. That IOM Committee recommended a 
new process for VA to follow in establishing presumptions. Can you 
please comment on your view of this new process?
    Response. I have not read the report, but I understand that this is 
a very complex area. If confirmed, I will need to study this subject 
area further in order to understand more fully the recommendations of 
the IOM. If confirmed, I would also look forward to hearing the views 
of the Committee and Veterans Service Organizations on this important 
topic.

    Question 21. With respect to presumptive disability decisionmaking, 
IOM also recommended a standard of ``causal effect.'' In some cases, 
servicemembers may have been subjected to multiple potential exposures 
of uncertain dosage. If causation is unclear, should evidence of 
increased incidence of certain disabilities be a basis for service-
connection?
    Response. Similar to the subject of Question 20, I have not read 
the report but understand that this is a very complex area and, if 
confirmed, I will need to study it further in order to understand more 
fully the recommendations of the IOM. If confirmed, I would look 
forward to hearing the views of the Committee and Veterans Service 
Organizations on this important topic.

    Question 22. VA recently entered into a memorandum of understanding 
with Indian Health Service in order to enhance the services available 
to Native American and Alaska Native Veterans. Please describe how you 
believe VBA can fulfill its responsibilities under this arrangement.
    Response. Although I have not had opportunity to review this 
agreement with Indian Health Services, it is my understanding that 
through this partnership VBA will increase access to services and 
benefits for Native American and Alaska Native Veterans. If confirmed, 
I would make it a priority to ensure VBA is fulfilling its 
responsibilities under this agreement and developing and implementing 
innovative and effective outreach strategies to ensure this population 
of Veterans are aware of, and can easily access, their VA benefits.

    Question 23. In recent months, contracting out of medical 
disability examinations has increased through the implementation of the 
Integrated Disability Evaluation System program. Under your leadership, 
would you continue to rely on contracting out for these examinations to 
supplement those that VHA provides?
    Response. If confirmed, I would look at the entire examination 
process and the various methods and options that are available to 
ensure medical disability exams are performed in a complete and timely 
manner. I would not want to state an opinion until I have been briefed 
and fully understand all the implications of using or not using 
contracting to supplement disability examinations. The Veterans Health 
Administration would be a crucial partner for any work in this area.

    Question 24. Do you foresee a time when contracting out of 
disability medical examinations will be the norm--and that VHA will not 
be expected to provide disability medical examinations?
    Response It is my understanding that contract physicians currently 
perform 20 percent of all C&P examinations. VHA completes the remaining 
80 percent. Given this information, I would not foresee contracting 
vehicles being used as the sole source for completing disability 
examinations.

    Question 25. VBA is in the process of developing the Veterans 
Relationship Management (VRM) initiative. What is your vision for the 
development of the next wave of VRM improvements?
    Response. From my understanding, the VRM's focus is to transform 
the Veteran's experience with VA through greater client-centric 
operations. I have considerable experience in assisting clients in 
implementing customer relationship management (CRM) systems and 
software and, if confirmed, look forward to applying that background to 
this effort. I was pleased to learn that the next wave of VRM 
improvements focuses on the iterative deployment of CRM tools. Through 
state-of-the-art CRM, VA will begin maintaining a shared record of 
contacts between VA organizations and Veteran-clients, which will be 
critical to achieving a better understanding of their needs and 
improving VA's ability to provide personalized experiences and superior 
customer service. If confirmed, I look forward to the opportunity to 
provide leadership and direction on this major initiative of extreme 
importance to Veterans and their families.

    Question 26. VA recently created a new Benefits Assistance Service 
(BAS) to ensure customer satisfaction, among other things. What role do 
you envision for the BAS during your term?
    Response. From my understanding, the BAS's goal is to serve as the 
key VBA organizational component that directs, coordinates, and 
oversees an expanded and enhanced program of outreach and client 
services that fulfill VA's advocacy responsibilities to Veterans and 
their families. If confirmed, I will work to ensure the BAS continually 
assesses and improves awareness, access, and service delivery so that 
VA is building proactive relationships with Veterans, and Veterans are 
provided accurate, professional, and compassionate services every time 
they contact VA for assistance. I believe this major customer 
relationship management initiative to provide multiple access channels 
and self-service options for Veterans and up-to-date tools for 
employees is vital to achieving the client-centered and personalized 
services Veterans expect and deserve to receive from VA.

    Question 27. Given the fairly recent media controversy over VA's 
insurance programs, do you envision any further changes to the programs 
to ensure transparency and confidence in the programs?
    Response. Overall I am aware this program has sustained over time a 
very high level of customer satisfaction. As I understand it, changes 
have been made to ensure that beneficiaries have a clear choice in how 
they want to receive their insurance payments. If confirmed, I will 
constantly look for new ways to further enhance all programs under 
VBA's jurisdiction.

    Question 28. Committee oversight too often finds veterans who are 
unaware of the benefits available to them. What type of outreach do you 
have planned to ensure that Servicemembers and veterans are aware that 
they can utilize their benefits?
    Response. I know the topic of outreach is one that is very 
important to this Committee and to VA. If confirmed, ensuring Veterans 
are aware of and know how to access their benefits will be a priority 
for me. From my understanding of current efforts there are significant 
outreach activities underway in VBA and across VA. The eBenefits portal 
is but one part of this effort, which also includes the use of social 
media tools. Part of outreach work entails understanding how 
Servicemembers, Veterans and their dependents access VA information, 
and then developing a multi-channel way to connect to them based upon 
their personal preference. In my view, VBA's outreach efforts must 
proactively engage Servicemembers and their families (Active Duty, 
National Guard and Reserve) through early communication of benefits 
beginning at accession and throughout their military careers, with 
effective communications continuing after separation from service. 
Outreach programs must also be redesigned to more effectively engage 
Veterans and their families in their communities. If confirmed, I will 
work to strengthen partnerships with Veterans Service Organizations, 
Federal agencies, and other state and local organizations to ensure 
VBA's outreach programs provide the right information and assistance at 
the right time. It is also crucial to ensure coordination between any 
VBA outreach program and other similar efforts across the Department.

    Question 29. Employee training is one of the most crucial efforts 
VA can put forth to break the back of the claims backlog by 2015. To 
that end, do you envision any changes to the current status or format 
of employee training?
    Response. As a strong proponent of training, I share the emphasis 
the Committee has placed on employee training as a tool to break the 
back of the claims backlog by 2015. Highly skilled and well-practiced 
claims processors can deliver benefits to Veterans accurately, 
efficiently, and quickly when also provided with the right tools. I 
believe improvements can be achieved through standardization of job-
skill training at the national level for both entry-level employees and 
experienced employees, and the development of formal training products 
that can be delivered to employees at their locations, and when they 
need the training.
    For critical positions that do not currently have nationally 
standardized curricula, if confirmed I would focus on new development 
to provide consistent training to support consistent performance. For 
critical positions that already have nationally standardized curricula, 
my focus would be on increased emphasis on evaluation and 
accountability for completion and to support timely delivery of 
training that is relevant to national quality issues.

    Question 30. Women veterans are the fastest-growing segment of the 
veterans' population. And because there are no frontlines on the 
battlefield in the current wars, we know that women are engaging in 
combat with the enemy. Unfortunately, because of the DOD policy 
prohibiting women from serving ``in combat,'' this reality is not well 
understood here at home, including by some in VA. This knowledge gap 
obviously impacts the ability of women veterans to receive disability 
benefits from the VA. What will you do to ensure that all VBA staff are 
aware that women are serving in combat and that they must have equal 
access to the benefits that they have earned?
    Response. As a Veteran and a woman, ensuring women Veterans are 
receiving quality benefits, care and customer service is a top priority 
for me. If confirmed, I will work to ensure that women Veterans' unique 
needs and issues are understood by our employees and remain at the 
forefront. Continuous and effective training is key to ensuring that 
awareness. When compensation benefits involve physical injury incurred 
by women in a combat theater, there should be no inequality in access 
to benefits because of the fact the physical injury will be recorded in 
military treatment records. However, I do know from my own military 
experience that when disability benefits involve mental health issues 
incurred by women based on stressful events in a combat theater, 
documentary evidence of the stressful event would often be difficult to 
obtain. For that reason, I am very supportive of Secretary Shinseki's 
regulation change related to Post Traumatic Stress Disorder (PTSD) that 
makes it easier for Veterans, including women Veterans, to obtain PTSD 
benefits when the stressor is based on a fear of hostile military or 
terrorist activity. This updated approach to PTSD compensation 
acknowledges that women are subjected to the same dangers and stresses 
as their male counterparts. If confirmed, I will ensure that 
comprehensive training programs exist for both new and experienced 
decisionmakers that appropriately address women's issues. I will also 
look to VA's Center for Women Veterans, the Advisory Committee on Women 
Veterans, and the Veterans Health Administration to continue to assist 
VBA in meeting the needs of women Veterans.

    Question 31. One of the biggest challenges that VA has faced over 
the course of the last two years is the implementation of the Post-9/11 
GI Bill, which was signed into law on June 30, 2008, and became fully 
effective on August 1, 2009. Although at times, implementation has 
posed daunting problems with the timely delivery of benefits, VA has 
made progress and is moving forward with a long-term solution for 
processing and paying benefits to veterans and other students. Have you 
been able to make an assessment as to whether VA will be able to meet 
future timelines for improvements in this area and what will you do to 
make sure that it does?
    Response. I am aware that VA has established a timeframe for 
implementing technology that will expedite the delivery of education 
benefits. After initial challenges in implementation of the Post-9/11 
GI Bill, I understand that VA has made significant progress in 
administering this program and using automation tools to enhance 
delivery of benefits. I am also aware of recent legislative changes 
that impact the way VA currently administers the Post-9/11 GI Bill and 
other benefits. If confirmed, I look forward to learning more about 
VBA's implementation timeline for the changes required by the new 
legislation as well as the overall efforts to develop and roll out 
additional technology tools for processing of educational claims and 
providing educational benefits.

    Question 32. Some of the underlying causes of homelessness among 
veterans are inadequate income, lack of affordable housing, and lack of 
accessible and affordable health care. What role, if any, do you 
believe VBA should play in preventing and ultimately ending 
homelessness among veterans?
    Response. If confirmed, I am committed to supporting achievement of 
the Secretary's goal to eliminate Veteran homelessness within four 
years. Having served in a faith-based community effort to assist the 
homeless of Washington, DC, this effort is one of the initiatives that 
drew me to pursue the position of Under Secretary. I have had personal 
conversations with homeless veterans and am proud to see VA tackle this 
issue. I know that VBA is a key partner in achieving the Secretary's 
goal. I understand there are Homeless Veterans Outreach Coordinators at 
each VA Regional Office to help ensure homeless Veterans and their 
claims are properly identified and expeditiously processed. I have been 
informed that these Outreach Coordinators also make referrals that 
incorporate VHA and other Federal and community partners into the 
Veteran's life.
    I also understand that VBA's home loan guaranty program plays a 
central role in preventing homelessness by helping Veterans retain 
their homes in periods of financial difficulty. If confirmed, I will 
work in a collaborative manner with VHA and other partners inside and 
outside VA to promote efforts that target this vulnerable population of 
Veterans and provide assistance with reintegrating them into the 
community.

    Question 33. With the increase in the number of women veterans, how 
do you, if confirmed as Under Secretary, intend to better utilize the 
Women Veteran Coordinators at the VA Regional Offices?
    Response. As a Veteran and a woman, ensuring women Veterans are 
receiving quality benefits, care and customer service is a top priority 
for me. If confirmed, I would work to ensure that all VBA Women Veteran 
Coordinators proactively reach out to women Veterans within their 
community. VBA coordinators must receive appropriate training and be 
equipped with toolkits to advise and counsel women Veterans regarding 
VA benefits and services. As mentioned earlier, if confirmed, I would 
also work closely with the VHA's Women's Health Program, VA's Center 
for Women Veterans, and the Advisory Committee on Women Veterans.

    Question 34. At the present time, military recruiters are actively 
recruiting Servicemembers from countries in the Pacific Islands, such 
as the Federated States of Micronesia. Some veterans' benefits, such as 
vocational rehabilitation services, VA home loans, and health care are 
not normally provided outside of the United States. In your view, what 
obligation does the government have to provide non-citizen disabled 
veterans benefits and services needed to compensate for and overcome 
the disabilities which they incurred after being recruited into United 
States military service?
    Response. I have been informed that the primary factor for 
determining eligibility to VA benefits is ``Veteran status,'' which is 
based on active military, naval or air service. I understand that non-
citizen disabled Veterans are eligible for many of the same benefits as 
Veterans who are U.S. citizens and reside outside of the United States. 
If confirmed as Under Secretary for Benefits, I will ask for a briefing 
on this topic to understand what limits may exist for the provision of 
benefits outside of the United States.

    Question 35. The Committee has conducted extensive oversight of the 
Integrated Disability Evaluation System. It is clear to me that 
challenges remain in implementing the program worldwide--which is the 
stated objective of both VA and DOD. Please describe how you will 
participate in decisions made with regard to the program given that 
responsibility for the program lies with Policy & Planning?
    Response. The Integrated Disability Evaluation System (IDES) effort 
is a joint VA and DOD initiative. If confirmed, I look forward to 
working with external and internal partners to continue its progress. 
It is my understanding that the Department's VA/DOD Collaboration 
Service, located within the Office of Policy and Planning, serves as 
the coordinating office to ensure that the various VBA and VHA elements 
of the organization are aligned in the IDES effort while the actual 
execution of the IDES rollout remains with the Administrations. If 
confirmed, I see my responsibilities in the areas of the Military 
Services Coordinators and the rating activities in the IDES. I 
understand that IDES is on track to be rolled out to all Continental 
United States, Hawaii, and Alaska locations prior to October 2011. If 
confirmed, I will participate in decisions by having my staff provide 
me with complete analyses to include manpower and resource requirements 
and impact on existing programs before I make recommendations on the 
IDES program. It is my understanding that, if confirmed, I will sit on 
the Senior Oversight Committee and, in that position, will have the 
opportunity to become actively engaged in any decisions that may impact 
VBA.

    Question 36. What role, if any, do you believe VA has in ensuring 
that veterans and others using educational assistance benefits receive 
quality education and training experiences?
    Response. I share the Secretary's view that VA plays an important 
role in ensuring all schools are held to the same quality standards, 
and that Veterans have adequate information to make informed decisions 
about how to use their VA education benefits to obtain a quality 
education. I am also aware that VA has procedures in place for 
oversight of participating schools and educational programs. If 
confirmed, I look forward to learning more details about maximizing 
VA's strategies for ensuring that Veterans receive a quality education 
in exchange for their earned VA benefits.

    Question 37. I have heard from constituents that very little 
information is available to veterans on the Native American Veteran 
Direct Loan program. What actions do you intend to take in the way of 
program outreach, local partnerships, and/or other mechanisms to ensure 
that eligible veterans are aware that they may participate in this 
program?
    Response. I understand that information regarding the Native 
American Veteran Direct Loan (NADL) program is currently available 
online, provided to separating Servicemembers during Transition 
Assistance Program briefings, and through outreach to local tribes at 
conferences sponsored by the Native American Indian Housing Council and 
the National Congress of American Indians. If confirmed, I will 
continue to work with State Veterans' Affairs Departments and inter-
tribal groups such as the United Southern and Eastern Tribes to ensure 
information is distributed to all appropriate audiences.

    Question 38. Are you concerned with any portion of the 
Administration's budget request for FY 2012 as it pertains to VBA?
    Response. I fully support the President's Budget. I believe it 
fully supports the VBA's highest priority; eliminating the disability 
claims backlog and ensuring no Veteran has to wait more than 125 days 
for a high-quality decision.

    Question 39. The Advisory Committee on Minority Veterans 
recommended that VA increase and fund more full-time Minority Veterans 
Program Coordinator (MVPC) positions, as the average VBA MVPC spends 
only twenty-four hours per quarter targeting outreach activities due to 
the conflict between the ancillary nature of this duty and production 
quotas. Do you think that the MVPC should be a full-time 
responsibility? How will you measure and benchmark the impact of VBA's 
outreach efforts to the minority veterans' community to ensure that 
these efforts are effective?
    Response. I believe that VBA's Minority Veterans Program must be 
appropriately staffed to provide effective outreach and assistance to 
minority Veterans. If confirmed, I will work collaboratively with the 
Center for Minority Veterans to identify ways to measure and ensure the 
success of our outreach efforts.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from the nominee to the Office of Legal Counsel, 
U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. Thank you very much, General Hickey.
    Mr. Muro.

 STATEMENT OF STEVE L. MURO, NOMINEE TO BE UNDER SECRETARY FOR 
   MEMORIAL AFFAIRS, NATIONAL CEMETERY ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Muro. Chairman Murray, Ranking Member Burr, 
distinguished Members of the Committee, good morning and thank 
you for the opportunity to appear before you today.
    It is a great honor to be the President's nominee to serve 
as Under Secretary for Memorial Affairs for the Department of 
Veterans Affairs, National Cemetery Administration. I am 
honored by the trust Secretary Shinseki has placed in me.
    The National Cemetery Administration is meeting the needs 
of veterans through innovation and increased access to 
benefits. We are providing a lasting tribute to veterans across 
the centuries, from the Civil War to the conflicts of today.
    Before I continue, let me also recognize the veterans 
service organizations in the room today. I want to thank them. 
Throughout my career, they have been a support, and I 
appreciate all the support they have given me.
    If confirmed, I intend to continue that close 
collaboration, leveraging their ideas to find and implement 
solutions for our veterans.
    NCA is truly a remarkable organization where a wage-grade 
auto mechanic, such as myself, may rise through the ranks to 
the position of Acting Under Secretary for Memorial Affairs. I 
have devoted my entire career to serving the organization in 
various positions including: Cemetery Director, Director of 
Memorial Service Network V, Director of the Office of Field 
Programs, Deputy Under Secretary, my current position as Acting 
Under Secretary for Memorial Affairs.
    In these senior leadership positions, I directed the 
largest expansion of the National Cemetery System since the 
Civil War, by planning, constructing, and opening 11 new 
national cemeteries.
    The entire organization is committed to serving veterans 
and their families with the highest level of customer service. 
For four consecutive times over the last decade, the National 
Cemetery Administration has achieved the top rating in the 
Nation on the American Customer Satisfaction Index, established 
by the University of Michigan.
    NCA's scores exceeded those of over 100 Federal agencies 
and the Nation's top corporations such as Ford, FedEx and Coca 
Cola. We are not surprised by these scores and results since 
more than 70 percent of our workforce are veterans.
    NCA leads Federal agencies in the percentage of employees 
that are veterans, including 190 veterans who have served in 
Operations Enduring Freedom and Iraqi Freedom. NCA 
accomplishments are due to relentless focus on three goals: 
fostering a culture of accountability, maintaining our national 
cemeteries as national shrines; and, most importantly, meeting 
and exceeding the expectations of veterans and their families 
in the one chance NCA has to serve them as we commit their 
loved ones to their final resting place.
    During my 33-year career, I have expanded burial access so 
that nearly 90 percent of veterans benefit from a burial option 
in a national cemetery or State veterans cemetery within 75 
miles of their residence.
    We have incorporated state-of-the-art technology for record 
keeping and claims processing and we have instituted 
organizational standards and performance measures across all 
business lines.
    Our management approach has made our operations more 
efficient. Our National Cemetery Training Center reinforces 
customer, service and performance standards by addressing 
professional development throughout NCA. Our National 
Scheduling Office centralizes eligibility determinations and 
scheduling across the system.
    If confirmed, under my leadership, NCA will continue to 
focus on innovations, partnerships, and efficiencies. For 
example, by using pre-placed crypts nationwide, we have saved 
land and reduced maintenance and operational costs.
    We are generating renewable energy by harnessing wind and 
solar power, employing new technologies to improve 
accountability and reaching out to the newest generation of 
servicemembers and their families with social media.
    In addition, we are embarking on a study of emerging burial 
practices and surveying our veterans and their families for 
their preferences for memorial benefits.
    Our partnerships with the States through the Veterans 
Cemetery Grant Program are vital to meeting veterans' burial 
needs in rural and tribal areas. Recently, Congress expanded 
the grant program so that we may assist States in meeting 
national shrine standards of appearance with operations and 
maintenance grants.
    If confirmed, I will continue to be a tireless steward of 
the national cemeteries entrusted to our care that serve as 
national shrines that honor the sacrifices of the Nation's 
veterans.
    I am grateful for the opportunity to come before you this 
morning to offer my vision for this agency to which I have 
dedicated my life's work.
    Thank you again. I look forward to answering your 
questions.
    [The prepared statement of Mr. Muro follows:]

Prepared Statement of Steve L. Muro, Nominee to be Under Secretary for 
Memorial Affairs, National Cemetery Administration, U.S. Department of 
                            Veterans Affairs

    Chairman Murray, Ranking Member Burr, distinguished Members of the 
Committee: good morning and thank you for the opportunity to appear 
before you today. It is a great honor to be here today as the 
President's nominee to serve as Under Secretary for Memorial Affairs 
for the Department of Veterans Affairs (VA)'s National Cemetery 
Administration (NCA).
    I would like to introduce my family here with me--Dr. Linda 
Johnson, and my daughter, Amanda--and although not able to attend, I 
would like to acknowledge my son, Steve, my daughter-in-law, Rebecca, 
and my grandson, Stevie--without their help and support, I would not be 
here before you today.
    In my current position as Acting Under Secretary for Memorial 
Affairs, I am honored by the trust Secretary Shinseki has placed in me, 
and in the dedicated men and women I am privileged to lead, in serving 
Veterans and their families. In concert with the Veterans Benefits and 
Veterans Health Administrations, the National Cemetery Administration 
is meeting the needs of Veterans through innovation and increased 
access to benefits. We are doing this today based on a long-standing 
tradition of providing a lasting tribute to Veterans across the 
centuries, from the Civil War to the conflicts today in Iraq and 
Afghanistan. If confirmed, I am committed to continuing that important 
work.
    Before I continue, let me also recognize the presence here today of 
our Veterans Service Organizations. I have worked with many of them 
throughout my career and I have greatly appreciated their support and 
counsel. If confirmed, I intend to continue that close collaboration, 
leveraging their ideas to find and implement solutions for our Veterans 
and their families.
    NCA is truly a remarkable organization where a Wage Grade auto 
mechanic, such as myself, may rise through the ranks based on a 
commitment to serve Veterans ``who shall have borne the battle, and for 
his widow, and his orphan'' and serve in the position of Acting Under 
Secretary for Memorial Affairs. I have devoted my entire career to 
fulfilling NCA's mission while serving in various positions throughout 
the organization. Following my service in the U.S. Navy, I served in 
many NCA leadership positions including leading and directing the 
staffs of six different national cemeteries, overseeing 18 cemeteries 
in seven western States as the Director of Memorial Service Network V, 
serving as the Director of the Office of Field Programs in Central 
Office and later as Deputy Under Secretary for Memorial Affairs, 
leading me to my current position. In these senior leadership 
positions, I have had the opportunity, working with the talented 
employees of NCA, to direct the largest expansion of the National 
Cemetery System since the Civil War--planning, constructing and opening 
11 new national cemeteries.
    Based on my broad experience, I can tell you that every level of 
the organization is committed to serving Veterans and their families 
with the highest level of customer service. NCA achieved the top rating 
in the Nation four consecutive times on the prestigious American 
Customer Satisfaction Index (ACSI) established by the University of 
Michigan. On the most recent 2010 survey and over the past decade, 
NCA's scores exceeded those of over 100 Federal agencies and the 
Nation's top corporations including Ford, FedEx and Coca Cola. Our own 
surveys of our customers confirm this exceptional level of performance. 
In 2010, 98% of our survey respondents rated the appearance of national 
cemeteries as excellent; and 95% rated the quality of service as 
excellent.
    We are not surprised by these results since more than 70 percent of 
our workforce has served in our Armed Forces. NCA leads Federal 
agencies in the percentage of employees who are Veterans, including 
over 190 Veterans who have served in Operations Enduring Freedom and 
Iraqi Freedom.
    NCA accomplishments are due to relentless focus on three goals: 1) 
fostering a culture of accountability; 2) maintaining our national 
cemeteries as national shrines by continually improving our operations 
and performance standards; and 3) most importantly, meeting and 
exceeding the expectations of Veterans and family members in the one 
chance NCA has to serve them in their hour of need, as we commit their 
loved ones to their final resting places.
    I am proud to be part of an organization that continually seeks to 
raise the bar and look for new ways to serve Veterans and their 
families. During my 33-year career, we have expanded burial access so 
that nearly 90% of Veterans--about 20 million--benefit from a burial 
option in a National or State Veterans cemetery within 75 miles of 
their residence; we have incorporated state-of-the-art-technology for 
recordkeeping and claims processing; and we have instituted 
comprehensive organizational standards and performance measures across 
all business lines.
    Our eligibility experts staff a centralized Scheduling Office 
operating 7:00 a.m. to 6:30 p.m. CST, 7 days a week (362 days/year). 
Our National Training Center reinforces customer service and 
performance standards by addressing professional development at every 
level of our workforce, from grounds maintenance to grief counseling 
and supervisor training. If confirmed, my focus will continue to be to 
provide the best service through efficiencies, innovations, and 
partnerships.
    Today, by using pre-placed crypts nationwide, we save land and 
reduce our maintenance and operational costs; these efficiencies ensure 
we can provide burial access for more years and are an example of NCA 
leading the industry with best practices. We are generating renewable 
energy by harnessing wind and solar power, employing technologies like 
Geographic Information Systems to improve accountability, and reaching 
out to the newest generation of Servicemembers and their families with 
social media and other emerging outlets. In addition, we are embarking 
on a study of emerging burial practices and surveying our Veterans and 
their families for their preferences for memorial benefits that honor 
their military service.
    Our partnerships with the States through the Veterans Cemetery 
Grants Program are vital to meeting Veterans' burial needs in rural and 
tribal areas. Recently, Congress expanded the grant program, so now we 
may assist States in meeting national shrine standards of appearance 
with operations and maintenance grants.
    If confirmed, I will apply my intimate knowledge of NCA in 
collaboration with Veterans and their families, Veterans Service 
Organizations and Congress to meet the evolving needs of a new 
generation of Veterans. I will continue to be a tireless steward of the 
national cemeteries entrusted to our care that serve as national 
shrines that honor the sacrifices of our Nation's Veterans. I am 
grateful for the opportunity to come before you this morning to offer 
my vision for this agency to which I have dedicated my life's work. 
Thank you again.

    I look forward to answering any questions you may have.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Patty Murray to 
Steve Muro to be Under Secretary for Memorial Affairs, U.S. Department 
                          of Veterans Affairs

    Question 1. Have you formulated any thoughts on what your job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. Having served as Acting Under Secretary for Memorial 
Affairs for the last two years, I am very familiar with the roles and 
responsibilities of this position and if confirmed I look forward to 
continuing my work fulfilling them. Dignity and respect for Veterans 
and their families is, and if confirmed will be, at the center of my 
work. During the time I have served as Acting Under Secretary, NCA has 
strengthened its processes and has served Veterans and their families 
with high levels of dignity, compassion, and customer service. My 
approach has been and if confirmed will remain one that is people-
centric, results-driven and forward-looking.
    The American Customer Satisfaction Index (ACSI), administered by 
the University of Michigan, has recently completed its assessment of 
more than 225 private sector companies and 100 public organizations who 
participated in the national customer satisfaction index. On 
January 25, 2011, the Federal Consulting Group, a Federal agency fee-
for-service franchise operation within the Department of Interior and 
created by an act of Congress, presented the Fifth Annual Customer 
Satisfaction Achievement Award to the National Cemetery Administration 
(NCA) in recognition of our commitment to outstanding customer service 
to U.S. Armed Forces Veterans and their next of kin. This commitment 
has been demonstrated by achieving extraordinarily high customer 
satisfaction scores throughout the last decade--the highest in 
government and the ACSI overall. If confirmed, I intend to continue 
leading NCA in achieving unsurpassed levels of customer satisfaction in 
2012 and beyond through sound leadership and investment in our valued 
resources, including people, training, and processes.
    If confirmed, I will continue to keep our Veterans and their loved 
ones at the forefront by pursuing even greater levels of service and 
satisfaction in meeting our solemn obligation to maintain VA's National 
Cemeteries as National Shrines. I will also continue to sustain the 
important work with State partners, through the State Cemetery Grants 
Program, to assist them in establishing, expanding and improving State 
Veterans cemeteries.

    Question 2. How would you describe your management style and how is 
it suited to this particular position?
    Response. Having started my career at a very different stage in the 
cemetery process, as a WG-9 mechanic, I have a management style that 
considers the health, effectiveness, and efficiency of the entire 
organization. While fulfilling the NCA's vision and mission, my 
management style tends to consider the entire workforce and the entire 
suite of roles and responsibilities. I am known to have a participatory 
and collaborative approach and, in my view, the NCA employees and 
leaders are more engaged in the decisionmaking process as a result of 
their involvement in discussions and planning. The staff members feel a 
real sense of contribution in the decisionmaking process and therefore 
feel ownership of our successes. I have witnessed how this management 
style energizes the employees and strengthens their sense of 
responsibility and ownership, especially in serving our Veterans and 
family members. There is amazing dedication and expertise throughout 
the 131 National Cemeteries, the five Memorial Service Networks, and 
Central Office. The staff has an enormous amount of experience that is 
beneficial to NCA and how we conduct our business. I believe the recent 
ACSI award is a reflection, in part, of my management style and the 
empowerment felt by the employees, especially as it translates into 
caring for Veterans and their families.

    Question 3. Have you and Secretary Shinseki discussed the duties 
and the role you would assume as Director of the National Cemetery 
Administration if you are confirmed? If so, what specific areas of the 
job were discussed?
    Response. As Acting Under Secretary for NCA for the last two years, 
I have had frequent opportunities to discuss the leadership and 
functions of the NCA with Secretary Shinseki. I meet with Secretary 
Shinseki on a weekly basis and have discussed his expectations of me as 
the leader of NCA including his goals and objectives for NCA. My 
approach has been, and if confirmed will continue to be, in direct 
alignment with his goals of being people-centric, results-driven and 
forward-looking. NCA's role is to honor our Veterans and loved ones 
with their final resting places. We have one chance to get it right and 
we try our very best to make that happen.

    Question 4. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position?
    NCA is continually identifying opportunities to ensure our 
cemeteries have the resources required to meet the needs of our 
Veterans and family members. I am constantly seeking cost-saving and 
innovative ways to ensure NCA's ability to meet the Veterans' needs of 
today and in the future. Some of the efficiencies and innovations that 
have been put into place over the past two years that I have served as 
Acting Under Secretary are an indication of the types of initiatives I 
would continue to work on, if confirmed.
    For example, NCA is applying new concepts and innovations to our 
cemetery processes. These include: the application of the system-wide 
use of crypts to preserve land and reduce maintenance/operating costs; 
application of ``water-wise'' landscaping that conserves water and 
other resources; installation of alternative energy products such as 
wind turbines and solar technologies that supply power to facilities; 
utilization of bio-based fuels that are homegrown and less damaging to 
the environment; and installation of innovative headstone/marker 
foundations to ensure long-term height and alignment. Another effort 
has been to ensure effective obligation of the $50 million provided by 
the American Recovery and Reinvestment Act for national shrine 
projects, equipment and infrastructure repairs. To ensure responsive 
service through burial options for Veterans, we are evaluating other 
burial practices such as ``green'' burials and rural burial options. 
Through the First Notice of Death Office (FNOD) established in 
October 2009, we successfully discontinued $56 million in benefit 
payments for deceased beneficiaries and avoided possible collection 
actions on benefit recipients.
    If confirmed, I would continue to focus efforts on technology and 
other improvements that would allow NCA to improve upon the already 
successful tracking and monitoring of decedents and gravesites.

    Question 5. Oftentimes, the only contact that a Veteran and his/her 
family will have with VA is through the National Cemetery 
Administration. What will you do to make certain that this contact 
remains positive?
    Response. NCA continues to lead the Government in customer 
satisfaction, and if confirmed I will lead this organization to sustain 
and where possible improve this high level of satisfaction. I will 
maintain an emphasis on training for excellence throughout the National 
Cemetery Administration. From the groundskeeper to the Cemetery 
Director, our employees are actively involved in the process of 
fostering a culture of consistency and excellence across all areas of 
cemetery operations. From the minute contact is made with our National 
Scheduling Office until our Veterans or family members are honored at 
their final resting place, our customers should be treated with the 
utmost dignity and respect. In my view, training is the cornerstone of 
this process, and if confirmed, NCA will make every means available to 
our employees and leadership to continue to strive for National Shrine 
status at our 131 Cemeteries.

    Question 6. What are your thoughts on the increasing demand for 
ecologically-friendly interments and burial facilities and how do you 
envision that could impact the NCA?
    Response. Currently, a study is underway regarding ecologically-
friendly interments and burial facilities that will examine alternative 
methods that could benefit NCA and the environment. Another area of our 
focus is energy efficiency. Presently, NCA has a wind turbine in place 
at Bourne National Cemetery, MA, which provides 90% of the cemetery's 
energy needs. To conserve natural resources in the West, four of our 
cemeteries have implemented water-wise capabilities. For example, the 
Bakersfield National Cemetery in California has utilized natural desert 
soil, ground cover of natural materials, and drought resistant and 
indigenous plants. At San Joaquin Valley National Cemetery in 
California, burial areas are seeded with a grass mix that resists 
drought. Fort Bliss National Cemetery in Texas has converted to water-
wise landscaping. The National Memorial Cemetery of Arizona in Arizona 
uses a ground cover comprised of decomposed granite that is landscaped 
with plants adapted to grow in sand and seven miles of drip irrigation 
tubing supply water to the 1,800 plants. If confirmed, I will ensure 
NCA constantly seeks ways to conserve natural resources and strives to 
become even more ecologically-friendly.

    Question 7. What do you believe will be your most daunting 
challenge and how will you confront it?
    Response. If confirmed, my most significant challenge will be 
ensuring and maintaining an excellent and effective workforce. 
Retirements, interest in upward mobility, career changes and ambitions 
are a few of the reasons why the workforce will undoubtedly change. If 
confirmed, I must ensure that NCA has effective succession planning 
that sustains a high caliber, professional workforce. To do this, I 
must maintain a highly successful and dynamic administration and 
management team that recruits, develops, and retains the right staff. 
In addition we will need to achieve optimum training at all levels, and 
provide inclusion and on-boarding activities to keep staff abreast of 
the organization's activities, priorities, needs, and opportunities for 
change and growth.

    Question 8. If confirmed, what would you most like to leave as your 
legacy?
    Response. If confirmed, I would want to leave behind a legacy of 
sustained commitment to quality where people will ask ``how does the 
National Cemetery Administration do it?'' I would like NCA to be the 
model for customer satisfaction in government and the private sector. 
If confirmed, I will keep NCA focused on our core methods for achieving 
this excellence in service, making sure we have the best trained 
employees who respect our mission and want to honor our Veterans and 
their loved ones, as they would want to have their loved ones treated. 
It is also about leadership that empowers employees to be visionaries 
and to always look for new ways to improve. In addition, if confirmed, 
creating new urban national cemeteries is an initiative that I would 
like to see fulfilled, and I look forward to working with Congress on 
this opportunity.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from the nominee to the Office of Legal Counsel, 
U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Murray. Thank you very much to both of you.
    We have had a number of Committee Members come in. You have 
all noticed that we have new technology changes for this 
Committee. I am proud that this is the first Committee that is 
moving to a paperless Committee.
    You have all the background information, and you have all 
of our witness information that you would normally have in a 
large binder in front of you.
    We are happy to help any of you as you work your way 
through learning this; but we hope to have some great advances, 
that we will be able to talk to some of our witnesses using 
these; and when charts and graphs come up, we will have them in 
front of us. I encourage all of you to take advantage of this.
    With that, I am going to begin my questions to both of our 
witnesses. As everyone knows, the Congress and the President 
are trying to find a path forward on the budget today; I want 
to ask both of you to help me address the concern that benefits 
and services may be affected by a government shutdown.
    I understand there is some reticence to discuss this issue, 
but as Chairman of this Committee, I need assurances that our 
veterans will continue to receive vital services and payments 
that they have earned.
    Mr. Muro, I wanted to ask you: would services be affected 
at the National Cemetery Administration? Most importantly, 
would burials still take place during a shutdown?
    Mr. Muro. Thank you for that question, Chairman Murray.
    Burials will continue at national cemeteries.
    Chairman Murray. They will?
    Mr. Muro. Yes.
    Chairman Murray. General Hickey, have you received any 
information on what would be happening at VBA? I really want to 
avoid what happened during the last shutdown when veterans 
received checks late and some services were curtailed. Have you 
received any information yet?
    General Hickey. Chairman Murray, thank you for the 
question. I am not privy to any of the information and 
discussions at VBA on these issues.
    Chairman Murray. OK. All right. Well, I appreciate it. 
These are concerns that all of us as Members have and I think 
we are all working very hard to try to come a resolution so 
that we do not need to worry about that. But I think it is 
important that we do understand that. So I will be pursuing 
those questions with others before this week is over.
    Mr. Muro, let me start with you. We talked briefly about 
Arlington National Cemetery when you and I had a chance to meet 
last week, but I want to get this issue on the record so that 
we can offer our veterans some peace of mind.
    We know now that the problems with misidentification of 
remains at Arlington may be worse than was originally thought. 
Arlington is obviously not run by the VA and, therefore, will 
not be yours to oversee.
    However, VA cemeteries are national shrines and are so 
important to our veterans and their survivors. I wanted to ask 
you today what safeguards are in place to keep what happened at 
Arlington from happening at our VA national cemeteries.
    Mr. Muro. Thank you, Chairman Murray.
    Within the National Cemetery Administration, we have our 
burial operation system that tracks all burials from the time 
we take the application to the time we set the headstone. We 
keep burial records electronically.
    We also have procedures for tracking when the individual is 
brought to the cemetery. We have the service. We document every 
step of the burial process to ensure they are placed in their 
proper gravesite and that the headstone is also placed on the 
proper gravesite.
    Chairman Murray. Are you helping Arlington with this matter 
at this point?
    Mr. Muro. Yes, we are. The new superintendent of Arlington 
National Cemetery, Pat Hallinan, was a 30-year career NCA 
individual that came up through the ranks, became a cemetery 
director, moved on as Director of Field Operations, and now is 
over at Arlington.
    We have also sent over other employees on details to assist 
him, and we provide copies of our operational policies and 
guidance to help them move forward, and we are also working to 
assist them with their electronic systems.
    Chairman Murray. Do you think that Arlington should be 
realigned to fall under the NCA?
    Mr. Muro. I think that we ought give the new team at 
Arlington the opportunity to address the issues that are there 
so that the Nation's veterans and those in uniform will feel 
good about Arlington again.
    Chairman Murray. General Hickey, as Under Secretary, you 
are going to need to keep a handle on who is receiving bonuses 
at VBA and why. Last year, of those VBA executives who received 
bonuses, the average was more than $17,000.
    How would you justify to veterans that at a time when they 
are going to be waiting on average nearly 200 days to get a 
decision that a bonus should be given to some VBA executives?
    General Hickey. Chairman Murray, thank you for your 
question. I will just tell you I have not been briefed on the 
bonus situation at VA other than to understand that bonuses are 
focused on performance if they are awarded, and I am just not 
aware of the level of bonuses that have been distributed inside 
of VBA. But if confirmed, I look forward to learning not only 
about the entire performance structure and how we reward people 
for good performance in service delivery of benefits, but also 
the entire human resources structure as well.
    Chairman Murray. OK. We will look forward to that and watch 
very closely with you.
    General, I know I do not need to tell you how vitally 
important education benefits are to our veterans, especially 
those that are trying to transition from the military into the 
civilian world.
    I am hearing a lot from veterans today about the cap on 
private universities as well as the stop in the payments for 
breaks between semesters. Veterans are telling me they are very 
concerned that when this stop happens, they will not be able to 
pay their rent and will end up dropping out.
    I am going to be introducing legislation very soon to fix 
this problem. I hope to be working with Senator Burr on this. 
It is, I think, very important that we take a look at this and 
address it.
    Will you commit to working with us on those fixes?
    General Hickey. Thank you, Chairman Murray, for your 
question.
    First, let me start by thanking the entire Committee, 
specifically Senator Akaka, Senator Webb, and the rest of the 
Committee for your hard work on what is known and seen by 
veterans across the Nation as an extraordinarily positive 
benefit, not only for themselves but the ability for them to 
use it with their families, if necessary, as well as the 
benefit that it will afford the Nation by offering this benefit 
to our veterans.
    So thank you very much for that.
    I will say that I know and have been briefed that VBA right 
now is conducting a very major outreach effort to all of the 
students who are impacted by the changes in the second 
legislation, and they are making a strong effort to give them 
as much advanced warning as possible.
    If confirmed, I absolutely look forward to seeing your 
legislation and commenting on that legislation in that respect 
but also look forward to learning other ways that we might be 
able to assist in this matter.
    Chairman Murray. OK. I appreciate that. One more question 
for you then I will turn it over to Senator Isakson.
    General Hickey, if you are confirmed, you are going to have 
one of the toughest jobs at the VA. You are going to be facing 
nearly a million pending claims and a massive amount of paper.
    I cannot underscore enough the level of frustration that 
veterans have with the claims backlog today. I talked about it 
in my opening statement.
    It takes 190 days to process a claim right now, and we know 
the situation is getting worse. VA is now predicting it will 
take 230 days to process a claim in 2012, in part due to the 
recent decision on Agent Orange claims.
    When we met last week, I asked that you provide the 
Committee with a plan within the first 45 days on the job on 
how you intend to cut the amount of time it takes to give a 
veteran a correct answer on a claim, and I want to put that in 
the record today.
    Are you willing to work and provide this Committee with a 
plan within the first 45 days?
    General Hickey. Chairman Murray, thank you very much for 
your question. And you are right. It is a very big and complex 
problem. We have, from my perspective, the very best situation, 
which is a senior-leader environment under Secretary Shinseki's 
guidance. His really strong staff focused on the solutions, not 
just a single way to come at this problem, but multiple ways to 
come at this problem by pulling apart the processes and taking 
out the waste and the delays and the cost of poor quality and 
streamlining those processes by working with the workforce to 
prepare them for this change and to train them with good 
standard operating procedures and also to bring on new 
technology with the veterans benefits management system that 
will facilitate and enable them to do these claims in a more 
efficient and effective way with broad-based capability within 
it that allows that decision and that adjudication to be made 
faster, better, and more responsive to our veterans who are in 
need.
    Yes, ma'am, you have asked me for a 45-day plan. If 
confirmed, I am committed to delivering that plan to you and 
talking to you about that.
    Chairman Murray. OK. Good. I would also ask you if you 
could send a training team out to Seattle. When I went out 
there and my staff went out there over the last recess, we 
found a significant number of problems. I would like to work 
with you to get somebody out there to help do some training. If 
you could work with me on that.
    General Hickey. Chairman Murray, one of my major focuses in 
all of quality management is to resolve issues right up front 
in a process and that begins with a major focus on training. I 
can commit to you that, if confirmed, my focus on training will 
be paramount in working with the workforce and others to ensure 
that we are providing that in consumable, appropriate ways and 
that it is a focus on quality throughout the process throughout 
their careers to ensure that we are delivering on that.
    Chairman Murray. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Chairman Murray.
    I want to apologize to both Members that I am going to have 
to leave. I have someone waiting for me in my office that I 
have to attend to.
    But before I do, I want to say two things. One is Chairman 
Murray is absolutely correct on what the one focus of your job 
is going to be, General Hickey, and the claims problem that we 
have got here has to be solved. I will pledge to you any 
support that I can give to help you in accomplishing that. I 
think that is the number 1 task.
    Second, some veterans' benefits are delivered by third 
parties. When we met, I discussed with you the issue of VA 
refinances on the VA home loan benefit.
    As you know, we discovered in Georgia that veterans were 
being overcharged on closing fees on VA refinances by some 
lenders. It was brought to my attention by an attorney who 
represented some veterans.
    I want to commend the Administration. When I brought it to 
their attention, they immediately began investigating it, 
confronted the lenders that had moved the charge around. And we 
have gotten refunds over $10 million to our veterans which I 
think is to the credit of the Administration.
    But it does point out how we should be observant of those 
third parties who are delivering, in part or in whole, benefits 
to our veterans which you will be in charge of.
    And with the permission of the Chairman, at some point in 
time after the first 45 days, we would like to have a hearing 
on the VA home loan program to make sure that those services 
are being delivered appropriately to our veterans, and I will 
call on you at the time at that hearing to do so.
    General Hickey. Thank you, Senator Isakson, for your 
question on the loan guarantee program.
    And I, from the exposure I have had thus far, would say 
that one of our highest veteran satisfaction areas is in our 
home loan program, where they take very seriously the 
responsibility to ensure that a veteran remains in their home 
and their families remain in their home.
    I know that they have some rather significant checks and 
balances in the process as they work with the mortgage 
providers and lenders and that they take very quick action. I 
thank you for the comment on their response. They take very 
quick action when they find a process that is not appropriate, 
in support of those veterans and advocating for those veterans.
    If confirmed, sir, I look forward to learning more about 
this particular area in relation to those checks and balances.
    Senator Isakson. Thank you very much and thanks to you both 
for your service.
    Thank you, Madam Chairman.
    Chairman Murray. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Madam Chair.
    General Hickey, I will start with you, and first of all, I 
will preface this by saying thanks to the both of you for 
coming to my office and having a nice visit.
    The Chairman asked you a question about the backlogs. In 
your testimony, you said it was a central focus of your job 
coming in, and you laid down some ideas with the answer to the 
Chairman's question.
    Have you thought about or do you consider working with 
VSOs. Can the VSOs play a role in this backlog issue? Have you 
thought about that? And if so, what role could they play, if 
any?
    General Hickey. Thank you, Senator Tester, for your 
question and also for our visit.
    If confirmed, my focus with VSOs would be a very strong 
partnership. I think they already do provide services in this 
area today, and so I would look forward to continuing that 
relationship with the VSOs as they assist many veterans in the 
preparations of their fully developed claims and other areas 
associated with their benefits options and choices.
    So my particular approach would be to be very engaged with 
VSOs and to look for any opportunity where we could partner 
together to make a difference in our veterans' lives.
    Senator Tester. OK. Do you have any--and I know you are 
supposed to know the answer to a question before you ask it, 
but do you have any idea what percentage of veterans do not 
take advantage of the VA system?
    General Hickey. Senator Tester, I am not going to guess at 
that number. I will just say that I know that of the 23 million 
veterans that we serve in general, about 8 million of those 
veterans, from the numbers I have received in open-source 
environments.
    Senator Tester. Eight million take advantage of it, and so 
we have about 15 million or so that do not.
    General Hickey. Sir, I say those are the numbers that I 
have seen.
    Senator Tester. OK. Is there anything we can do about that? 
I mean, we have veterans out there who have earned benefits, I 
guess maybe they are not buying what we are offering. Is there 
anything we can do about that?
    General Hickey. Thank you, Senator Tester, for your follow-
up. I know that VBA, in particular, from a benefits perspective 
is pushing very hard in outreach. In fact, my understanding is 
that VBA has established the Benefits Assistance Service in an 
effort to do exactly that which is outreach to the many 
veterans that have served so well our Nation so well.
    Senator Tester. Any idea on how effective that has been?
    General Hickey. Sir, my understanding is that it is fairly 
recent. But I will say that one of the major efforts that I 
have actually seen myself as a veteran is the e-benefits site 
where they can literally take advantage of self-service options 
to potentially pull their DD-214 and have it on the spot, to 
look up some of the other benefits they are entitled to, and 
see what the status of that is, even to access their payment 
history for things like their schools.
    Senator Tester. Part of that outreach hopefully will be 
focused on rural America, where we have a lot of veterans, 
whether you are talking about Montana or Alaska or any other 
rural State--we have a ton of them.
    We talked about the GI overpayment issue and whether it is 
a, for whatever reason, clerical error, cumbersome process, 
whatever it might be. Currently, if the VA overpays a person it 
really puts the veteran in a bind. And I am talking about if 
they are going to school particularly. We talked about that in 
my office.
    Have you had a chance to consider this issue at all to look 
for any remedies, and if so, what would they be?
    General Hickey. Thank you, Senator Tester, for that 
question. I support the Secretary's position that the student 
needs to be focused on their education and completing that 
education and not worrying about the financial situations 
associated with that education.
    What I can tell you is that the outreach effort is out 
there but it is also inclusive of a willingness and the 
leaning-forward nature of VBA to work with that student to, if 
necessary, readjust payment options and anything that might be 
more facilitative to the student to really focus on their 
schoolwork and not on this issue.
    Senator Tester. That is great. Is there any effort going to 
be put toward the people who are on campus that are 
administrating these programs?
    General Hickey. Sir, my understanding is that currently 
there are relationships with schools and with the education 
business line and that a focus for them is to build those 
partnerships and relationships and to communicate with them so 
that they are understanding what the issues are and who their 
students are.
    Senator Tester. When you get confirmed and you get into 
this position and you do the outreach, I think those people on 
the campuses can be a tremendous resource for you as you move 
forward to solve this problem because they have been a 
tremendous resource for me, quite frankly.
    Just in closing real quick, I would just say that, Steve, I 
want to keep on your radar screen the Yellowstone cemetery. It 
is a big deal for veterans across Montana, northern Wyoming, 
and hopefully we can get that settled as soon as you are 
confirmed if not before.
    So thank you.
    Mr. Muro. Thank you.
    Chairman Murray. Senator Moran.
    Senator Moran. Thank you, Madam Chair.
    General Hickey, I have heard from VA officials for a long 
time about the number 1 priority that you plan to address is 
the backlog.
    What makes this different? What do you intend to do 
differently considering what we have heard over a long period 
of time about solving this issue?
    General Hickey. Thank you, Senator Moran, for your 
question.
    I would start by first acknowledging the really hard work 
that has been done by the VBA staff. Yes, in fact, there was 
1.2 million claims in the door in 2010, but they have also 
reached record heights in completing a million claims in 2010, 
and so I thank again this Committee for providing the resources 
that allow them to do that.
    What I would say the difference now that perhaps did not 
exist for my predecessors in this position is the culmination 
of first and foremost, a OneVA approach to this challenge.
    I think in the past it may have been seen as a VBA issue so 
VBA needs to go solve it. But under this Secretary's leadership 
and under the leadership of Deputy Secretary Gould and the 
colleagues in VHA and even the National Cemetery 
Administration, I think that the focus of this issue now being 
seen as a OneVA effort is first and foremost, an opportunity.
    Second, the fact that the process has been unpacked very 
diligently, like never before, really looked at hard, and then 
brought back together in a way that shapes the business rules 
for the veterans benefit management system is a second. So a 
real strong focus on the process.
    Third, frankly, the VBMS system itself will move VBA from a 
paper-bound process, as you well described and I have actually 
seen--pictures with mountains of papers that barely leave desk 
space for our hardworking VBA employees--I think that VBMS 
system and my experience using systems like that in my day job 
today, is a significant way forward. When you combine that with 
the process. But critical to that will be the preparation of 
the people, training them to use that system, getting to a 
standard operating procedure and training methods to prepare 
them for VBMS.
    I think that creates an opportunity that has not existed 
before.
    Senator Moran. If I understand your answer correctly, in 
large part this is the culmination. We have been working a long 
time on getting the backlog under control. The Secretary is 
clearly emphasizing the importance of the entire VA but because 
of the progress that has been made to date, we are now in a 
position to make significant progress and the backlog greatly 
diminished. Is that accurate?
    General Hickey. Senator Moran, thank you for the follow-up. 
I will say that it is very much the goal the Secretary has 
established in his strategic plan, and I am a strategic planner 
by trade so I value the guidance provided which is to have no 
veteran wait more than 125 days for a good-quality decision at 
a 98 percent accuracy rate.
    Senator Moran. What it is in your experience at Accenture 
that lends itself to the leadership necessary to accomplish 
this goal?
    General Hickey. Thank you, Senator Moran, for allowing me 
to tell a little bit about that side of my life. I will say 
that one of my roles was to do the requirements development for 
a Federal agency in customer-relation management and call-
center practices.
    So while certainly I am not an ``Xs and Os'' code developer 
of any kind, and never claimed to be, I really did see the 
value associated with large throughput of transactions, how you 
triage that, how a system allows you to communicate with your 
customer more effectively in whatever means they choose to do 
with you, whether it was fax or phone or email or app or iPad, 
in your example.
    Also my understanding is that combined with what I do today 
in program management where I oversee a team that does all of 
the transactional H.R. services for another Federal client, 
seeing how it does not matter, it is not personality or person-
dependent or even desk-dependent, when we push our work through 
a system. Any qualified individual can work on that same file 
knowing all the data and all the work that has been done before 
and there is good accountability in that process, and it 
reduces the burden of the paper flow issues that are created as 
well.
    So that would be the two major things. And the third, 
frankly, is the program management experience that I have. So 
working toward deadlines and timelines and achieving what we 
promise and what we committed to in the inception of the 
program.
    Senator Moran. General, thank you very much.
    If confirmed, I look forward to helping you reach that goal 
on behalf of the veterans of Kansas and the country.
    Mr. Muro, we have three national cemeteries and four State 
cemeteries in Kansas. I think at some point in time we need to 
talk about some expansion but I appreciate and just would 
acknowledge your rise within the organization and it is 
pleasing to me that there are those opportunities for people to 
begin as a mechanic and end up as the Under Secretary.
    If confirmed, I offer my congratulations to you on that 
success in your personal life.
    Madam Chairman, thank you very much.
    Mr. Muro. Thank you.
    Chairman Murray. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. First, congratulations to both of you for 
being nominated, and I appreciate your being here today.
    Let me, if I can, ask a couple of questions. First, General 
Hickey, last year I held a field hearing in Alaska regarding 
the VA and IG report that was published, and it was published 
in 2009. I am not sure if you are familiar with it but I am not 
expecting you to be specifically.
    But in that report basically said the Anchorage office did 
not meet the VA requirements in thirteen of the fourteen 
regional areas, and it kind of had a shopping list of issues. 
They have been working through it.
    But one of the big issues, and I was just intrigued by your 
conversation here about customer service and some of those 
elements that you are familiar with is the relationship and 
confidence in the system because when you get a strong IG 
report obviously there is a lack of faith that things will get 
done.
    And as they start to get done, the question is how do you 
get that information out to people so that they feel more 
confident in the system as these changes are being done.
    First, let me ask you: are you familiar with the report? I 
am not expecting you to be.
    General Hickey. Thank you, Senator Begich, for your 
questions. I have not read the report but I understand at a 
very high level the issue.
    Senator Begich. Do you think when there are reports like 
this, and I would be interested in your feedback, and I am 
assuming positive confirmation, on the report and kind of the 
status of how to deal with the relationship and getting the 
confidence level higher with the VA regarding the outcome of 
the work they have been doing based on that report.
    Give me some thoughts as to how you might address that.
    General Hickey. Thank you, sir, for the follow-up. I will 
start by saying it is my understanding that the issues raised 
in the IG report have been closed, resolved and closed.
    Senator Begich. Right.
    General Hickey. So my other experience, frankly from a 
military perspective where we did a great number of inspections 
and reviews through IG assessments and evaluations, is that and 
I do not know how the IG works within the VA, but I would 
assume there were some similar interactions between IGs.
    As to the first issue, no matter who we are working with in 
our VBA environment, there are appropriate standards, and those 
standards are assessed. I do know that the VBA or the VA IG do 
periodic assessments through a sampling of the different 
offices to assess performance.
    I believe in assessing performance. I have lived in an 
environment where assessing performance validates that you are 
on the right track and that you are going in the right 
direction and that you do not need additional assistance.
    I do not necessarily think sometimes that finding something 
in a performance assessment from an IG perspective is a bad 
thing. It highlights it. It lets us put resources and 
appropriate training or appropriate adjustments to the process 
to fix it and resolve it and move forward.
    And aside from that, I would just simply say communication 
for me regardless of the topic is very vital. Outreach is very 
vital. If confirmed, I am committed to getting the word out as 
often and as frequently--seven times seven different ways, if 
necessary--to communicate.
    Senator Begich. Very good. Let me go onto another issue. A 
couple of weeks ago I held a meeting with many of the Federal 
agencies, kind of an interagency group on homelessness.
    And the veteran population is growing fairly dramatic 
especially in rural areas. Senator Tester talked about rural 
Montana. Rural Alaska is even more rural than Montana. We 
always joke about that, he and I.
    Tell me, what are your thoughts on how to ensure that the 
veteran homeless population access the VA in areas that are 
remote in Alaska?
    And how would you reach out to the rural communities, 
especially in getting benefits to the rural homeless that is 
clearly growing? There is no question about it in Alaska. You 
see it.
    General Hickey. Thank you, Senator Begich, for your 
question and for your concern for those veterans who are really 
struggling without a roof over their head and perhaps many 
other benefits associated with that as well.
    I will just start my comments by saying that particular 
issue, I know, is a significant one to the Secretary and to VA 
at this point in time and is, frankly, one of the issues that 
drew my interest to this position--finding a way to meet the 
needs of our homeless veterans.
    So if confirmed, I look forward to exploring with VBA and 
with the offices in VA who have that charge to tackle that 
issue, on ways in which VBA can assist in providing methods to 
provide benefits to our homeless veterans. I know that they do 
that today.
    Senator Begich. Assuming you get confirmed, my time is 
expired, but I would love to invite you to Alaska, and 
obviously at whatever time, to kind of visit some of the rural 
areas so that you get kind of that sense of the struggles we 
have there in trying to meet those services.
    General Hickey. Thank you very much, Senator Begich. I have 
had the wonderful opportunity in my Air Force career to make 
two great trips to Alaska and spent quite a bit of time up 
there, one in the dead of winter and one in the glorious all-
day sunshine.
    So I would look forward to visiting with you.
    Senator Begich. You get extra points for being there in the 
winter. That is a plus up. You have great enthusiasm. I think 
it is exciting. Do not let the system beat you down because I 
think that enthusiasm you have is going to be a huge plus to 
the VA.
    General Hickey. Thank you very much, Senator, and I will 
work my best to not let that happen.
    Chairman Murray. Thank you.
    Senator Brown.

               STATEMENT OF HON. SCOTT P. BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Madam Chair. 
First of all, thank you for holding the hearing and obviously 
congratulations to both of you.
    General, starting with you, you mentioned your private-
sector experiences providing knowledge on building, retaining a 
quality workforce, and then customer relationship management 
especially. What lessons do you think you could apply from the 
private sector to these areas, to the areas that we have been 
talking about, if you are confirmed?
    General Hickey. Thank you very much, Senator Brown, for 
your question and also for your continued service in the 
National Guard.
    I have a long history with the National Guard, and it is a 
very proud one so I especially appreciate what you do for your 
State as well in that regard.
    So, my experience with industry has been very remarkable. I 
will be honest in saying it was not my experience in the 
military. Learning the way that industry uses technology, 
combined with processes, how it prepares the workforce to be 
really comfortable in that method was new to me.
    So I have just been very eager in understanding all that 
industry has learned about leveraging IT; but specifically I 
will say that, in application to this role, I have learned that 
you do not just throw IT in an organization and expect that to 
be successful.
    I have learned that you need to prepare with good change 
management, with good communication, with good training plans 
in advance of an IT system integration in that you need to 
also, in conjunction with that IT, make sure that it is 
capturing the best and right process.
    And if you are doing that in an agile way, meaning you are 
willing and flexible to improve upon that over time, then you 
really can continue to improve a process and really drive 
efficiencies even higher.
    The last thing I will say: I have always been a focused 
person on data and analytics but even more heightened in my 
experience in industry and I will drive my decisions not 
exclusively on data and analytics but heavily looking for data 
to drive decisions.
    Senator Brown of Massachusetts. Indeed, it is certainly 
important, but what I found and I think everybody who is here 
in Congress has found that the lack of personal attention to 
soldiers' claims is the driving force. They feel neglected. 
They get lost in the quagmire of paperwork and statistics and 
the like.
    Have you given any thought to actually working in teams and 
having one team start and then finish the claim and doing it in 
a more potentially timely and personable way?
    General Hickey. Thank you, Senator Brown, for your follow-
up question. It is my understanding, and I look forward to 
confirming this, that our VBA workforce takes every one of 
those applications and sees it not as a piece of paper or as a 
number or as a statistic, but as a deserving veteran who 
deserves their care and compassion. Everyday they get up and 
come to work to do that.
    I would offer to you that we will continue to encourage 
personal relationships with those that they serve in VBA. But 
also, as I have been throughout my career, always open to ideas 
that would help us to operate better and more efficiently.
    I have, in my experience, both in the Air Force and in my 
current industry experience, worked on matrix teams and learned 
that sometimes to tackle big problems you have to look at the 
way in which you work together to expedite things.
    So if confirmed, I look forward to having more discussions 
and understanding how VBA operates today and its teaming 
structure.
    Senator Brown of Massachusetts. I would suggest putting 
everybody in a room and have them then take a file and go from 
``A'' to ``Z'' within the confines of that room and just 
solving a problem and banging out that workload.
    I think everyone here will agree, that is the number 1 
issue I get phone calls on in Massachusetts. We have a big wall 
in our office of claims that we have settled and it is through 
really unorthodox manners that we, in fact, have to do it.
    Fortunately, they are in the same building, and we are able 
to go down and look them eye to eye but not for that, my gosh, 
I cannot even imagine. I would ask you to focus on that.
    I am going to shift gears, sir. How has the National 
Cemetery been able to avoid some of the mistakes that plague 
the Arlington Cemetery?
    Mr. Muro. Thank you for that question, Senator Brown.
    I believe it is our culture of accountability and training 
of our employees plus the responsibility to report any type of 
situation that may occur up the chain of command to ensure that 
the families of the funeral homes be notified if something does 
occur. We do not hide anything we do. We are up front. We train 
our employees to ensure everyone understands that the 
responsibility of maintaining our cemeteries as national 
shrines and providing dignified burials for veterans and their 
family is the most important part of our job.
    Senator Brown of Massachusetts. I do know when Senator 
McCaskill and I had a hearing, we actually discovered a lot of 
what was going on and we filed legislation that passed in a 
bipartisan, bicameral manner. So we have tried to track those 
particular issues.
    How do you plan on recruiting the right people, continuing 
to recruit the right people to continue with your mission?
    Mr. Muro. Well, one of the things that we do, and if 
confirmed will continue to improve on--hiring veterans is a 
strong way for us to continue quality service and also going to 
the colleges to bring people in at different levels and 
different programs like the SCEP programs where we can train 
them and promote them so that they understand the culture of 
the National Cemetery Administration.
    Senator Brown of Massachusetts. Thank you.
    Thank you, Madam Chairman.
    Chairman Murray. Senator Webb.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Chairman Murray.
    This is my first opportunity to congratulate you on having 
taken over the chair. I am very pleased to be remaining on the 
Committee with you.
    I would like to thank both of you for having come by my 
office and we had, I think, pretty extensive conversations on 
areas that I feel are of particular concern.
    General Hickey, I think this whole area of seamless 
transition as it applies to the disability evaluation system is 
something we really need to get better coordination with 
between DOD and VBA, and I am pretty comfortable with the 
conversation we had on that.
    Both of you have, I think, the types of careers that should 
really commend you to the positions that you are going to 
undertake.
    I have to say that I am extremely impressed with Mr. Muro's 
journey. I think you probably know where all the nooks and 
crannies of the system are. I will resist the pun that usually 
comes along with that.
    But I have one area that I want to make sure, for the 
record, that we are clear on with respect to the concern of my 
office. Mr. Muro, yours is the only office in government where 
I think this still has relevance, but I assume that you would 
agree that it is the position of the VA that Confederate 
soldiers have the same status as Union soldiers when it comes 
to memorial affairs, from the Civil War.
    Mr. Muro. Thank you, Senator Webb. I think that all of 
those who served our Nation and the responsibilities we have to 
ensure that they are properly memorialized is important to the 
VA and the National Cemetery Administration.
    Senator Webb. So in terms of legal status at this point in 
our history, Confederate soldiers and Union soldiers have the 
same legal status?
    Mr. Muro. They do have the same legal status as the Union 
soldiers and we provide them memorialization in the same 
manner, depending on the location of their burials.
    Senator Webb. This is not an idle question, as you know. We 
are coming up on a period here with the 150th anniversary of 
the Civil War. This was not always the truth. This was not 
always the case with the Federal Government, particularly in 
the area of, well, actually after the Civil War in a number of 
areas but during the past century, particularly in the area of 
memorial affairs, how our Confederate soldiers were remembered, 
and there is a tremendous amount of misunderstanding, I think, 
in this country about the reasons that people served during the 
Civil War.
    We can take the political questions aside. You and I served 
during the Vietnam era. We know the difference between 
political questions and actual service.
    But when you look back at that era--a lot of people forget 
this--that only 5 percent of whites in the South owned slaves 
and only 25 percent had anything to do economically with the 
system. That is from John Hope Franklin, the most eminent 
African-American historian of the last century.
    Yet one out of every three white southern males between 
ages 18 and 40 died in the Civil War, and it has taken a great 
deal of effort to have them properly memorialized.
    I view this not only personally because of my own family 
journey but because we up here are the stewards of the service 
for those who came before us. Just as people are someday going 
to memorialize what you and I did during the Vietnam era.
    With that in mind, I raise the issue of the cemetery in 
Richmond which we have had correspondence on, the Oakwood 
Cemetery, where, depending upon who is counting, there are 
about 14,000 Confederate soldiers buried.
    I had a long discussion on this. The question seems to be 
the statutory interpretation of what it means to have a marked 
grave. What we are trying to do, as you know, with the support 
of the Virginia government and the city of Richmond, is to get 
upright markers where we can actually have names on these 
markers.
    I know the position that we received from the VA when we 
asked this question was that because these graves were marked 
in some way with these flat, numbered markers that that 
constitutes a marking by law.
    Let me ask you: is that interpretation from the general 
counsel at the DVA or is that legal interpretation from your 
office? Do you know?
    Mr. Muro. Thank you for the question, Senator Webb. It was 
guidance from the legal counsel in VA in reference to the 
interpretation of what is considered a marked grave whether in 
a national cemetery or private cemetery.
    Senator Webb. So this was legal advice but not a legal 
opinion from general counsel?
    Mr. Muro. It was legal guidance provided to us that the 
graves are considered marked because of the historical fact 
that the women's organization responsible for determining the 
type of markers they wanted to mark the graves, came to the 
conclusion that the square blocks with the numbers was the way 
they wanted to mark those graves.
    Senator Webb. And as we discussed the other day, one of the 
reasons was that private citizens were having to pay for the 
markers at that point in 1905 or whenever that was. Is that 
correct?
    Mr. Muro. That is what we assume why they decided to buy 
those particular markers. They followed the footsteps of other 
cemeteries that used a similar marker.
    Senator Webb. If you read the statute, what we are talking 
about here is headstones or markers being provided at the 
expense of the United States which is the traditional policy.
    Mr. Muro. That is our policy today. We do provide them 
today.
    Senator Webb. We may want to continue the discussion. I 
hope you can find some sort of resolution here that will honor 
these people.
    Mr. Muro. We look forward to working with you and your 
staff, Senator.
    Senator Webb. Thank you.
    Chairman Murray. Thank you very much.
    General Hickey, let me turn back to you. Right now, we have 
a situation where modern medicine is not reflected in how 
disabilities are rated. My staff uncovered a case recently 
where a veteran was prescribed a very dangerous drug to treat a 
disability identified as cancer by the National Cancer 
Institute. Yet the veteran was rated at zero percent and 
received no compensation for his cancer.
    Are you committed to fixing the rating schedule?
    General Hickey. Thank you, Chairman Murray.
    It is my understanding, from the discussions that I have 
had to date, that there currently is an ongoing effort to 
update the rating schedules for VA and that is being done in 
conjunction with both the internal VHA experts but also medical 
experts outside of VA, and I think and believe that even some 
of our experts in VSOs are participating at some level as well.
    So, if confirmed, I look forward to learning more about 
that VA schedule process and to being part of the process that 
is required from VBA's perspective.
    Chairman Murray. Thank you. We have talked about several 
times today the VBA moving from this paper system into one that 
uses technology to help speed up work and improve the final 
decision.
    I have seen some of these claims you mentioned. You have 
seen photos. Where do you begin in taking these massive files 
of paperwork and distilling them down to something that works 
in a paperless environment?
    General Hickey. Thank you, Chairman Murray, for the 
question. I think I begin by, if confirmed, seeing how the 
process works both in the unpacking of process effort that was 
done by the Secretary but also getting my feet on the ground 
and my sleeves rolled up and out with the workforce, seeing and 
hearing how they do their work every single day and the 
barriers to that work.
    So I would start there. Then I would also focus in on and 
learn in much more detail what the technology will do for VBA 
and for the benefits distribution in the big picture view. I 
would like, if confirmed, to really get down into the 
capabilities and requirements that they are building those 
systems to and understand that and how they correlate with the 
processes that have been described.
    So I would need to defer until, if confirmed, to make a 
good assessment and provide you a better answer on where to 
start because I think inherent is the understanding of the 
process, the people, and the preparation of those people and 
the technology and how that all comes together.
    Chairman Murray. I do not need to tell you it is not going 
to be easy, but it has to be done so I look forward to hearing 
from you once you are confirmed, and have actually seen some of 
these files like I have how we are going to move from a file 
that is mass paper to something that is doable for literally 
thousands and thousands of claims.
    General Hickey. Chairman Murray, I might just add my 
personal experience, my current experience with the program 
that I work at right now in my company. We actually have 
converted Federal agency official personnel files and have done 
that through a very major scanning project effort.
    It takes a bit of time to do, but with the right kinds of 
high-speed technology enhancements or things of that nature 
there are things that can be done to tackle those issues, at 
least from my external perspective.
    Certainly, that is not from my internal VBA perspective. I 
am not privy to those kinds of operations that exist today.
    Chairman Murray. Thank you.
    Mr. Muro, let me turn to you. I think we need to 
continually re-evaluate the burial needs of our veterans, and I 
know that the VA already has begun this process.
    According to the President's budget request to us, the VA 
is establishing an urban initiative to provide enhanced service 
to densely populated areas like Los Angeles, San Francisco, or 
New York.
    Can you describe to us this initiative and any others that 
you think will help the burial needs of our veterans?
    Mr. Muro. Thank you for that question, Chairman Murray.
    The urban initiative will actually be columbaria-only 
cemeteries. That is for cremated remains niches in the urban 
areas, Los Angeles, San Francisco Bay area, Chicago, New York. 
That is a start.
    We got results from the annual surveys we do with our 
customers and they are telling us they would come more if 
cemeteries could be closer; and with the increase of cremation 
in the United States, we are looking at building the 
columbaria-only cemeteries to provide closer service to those 
veterans that live in urban areas.
    In the reference to rural America, the Secretary has 
charged all of VA to improve access to those veterans that live 
in rural America. And NCA is looking into that now. And if 
confirmed, I will ensure that we provide some kind of a burial 
option for those veterans in rural America.
    Chairman Murray. OK. We look forward to hearing more on 
that.
    One more question for you. You have worked your way up 
through the National Cemetery Administration and served the 
past 2 years as the Acting Under Secretary. So you are 
intimately familiar with our national cemeteries.
    You stated in the pre-hearing questions that, if confirmed, 
you would pursue even greater levels of service and 
satisfaction to meet our solemn obligation to maintain our VA 
cemeteries as national shrines unlike what has occurred in 
Arlington.
    Can you talk for a minute about what your plans are to 
achieve higher levels of service and satisfaction, and most 
importantly, how you will measure your success?
    Mr. Muro. Thank you for that question, Chairman Murray.
    One of the ways we are doing that is that we are actually 
looking at our surveys, not only the surveys we conduct 
annually through a contract but also through Michigan 
University, the survey they do.
    And we are looking at those cemeteries that have high 
scores, 97, 98, 99 in customer service, and we are actually 
benchmarking them. We have gone out and done studies at those 
cemeteries to see what it is that they are doing that has rated 
such a high score.
    One of my concerns is that 5 to 6 percent of the veteran 
population did not give us a high score. For example, my lowest 
scored cemetery is 84. That is not a low score, but that is not 
an acceptable score.
    So we are looking at what can we do, what are the 
cemeteries at the top doing, how can we instill these best 
practices at the other cemeteries. The National Training Center 
is one of the ways we are doing this.
    We just kicked off a new training class for our caretakers. 
It is cemetery caretaker training that teaches them all aspects 
of cemetery operations. So all new caretakers coming in will go 
through it.
    My goal is to have all our caretakers that are on the roles 
right now which is close to 800 attend one of the classes 
within the next 24 months so that we can certify that all of 
those individuals have been trained in all aspects of their 
job.
    Chairman Murray. OK. Thank you very much.
    Senator Begich, do you have any additional questions?
    Senator Begich. Just a couple of quick ones.
    General, regarding the paperless system you are going to 
which I think is great, I just want to put one cautionary note 
from a customer coming in, for example, in Alaska especially 
our rural communities, it will take 30 minutes to download a 
1040-EZ form because we have the slowest speeds in the country 
when it comes to high-speed broadband.
    So I just want to give you a caution. For example, a lot of 
our communities now in rural Alaska, to fill out grant 
applications and so forth, that is now down almost 48 percent 
because they just do not have the broadband capacity.
    So as you think about your internal system and how you use 
that to connect with your customer, people filing the claims, 
keep in mind that some areas may be connected but not have the 
speed to do it appropriately.
    Just imagine a 1040-EZ form. I mean we are going to get a 
lot of calls these next 2 weeks, I know it already, thank you, 
April 15th is right around the corner. So I just want to give 
you that cautionary note as you do this work.
    General Hickey. Thank you, Senator Begich. If confirmed, I 
will certainly keep our rural veterans and those who are not in 
close proximity to bandwidth capabilities in mind as we work 
through this issue.
    Senator Begich. Again, it is not that they will not 
necessarily be connected. It is just the speed, and that is the 
big problem.
    The other thing, I just want to point this out, something I 
hope you look at. I know within our Anchorage office there 
seems to be brokering out some of the claims to, I think it is 
Montana and Salt Lake City.
    That tells me there is a volume issue or staffing issue. We 
have lots being shipped out. The problem, of course, is that is 
2,000 miles away from us.
    So as you again get confirmed, could you look at that and 
give my office some feedback on what you see as the challenge 
there and why so many are being brokered out to outside of 
Alaska.
    Again, that just tells me there is a staffing issue here or 
some sort of systematic problem.
    General Hickey. Thank you, Senator Begich, for your 
question. My answer would be, if confirmed, to look at that 
more specifically from an Alaska perspective but I do not have 
that level of specificity right now.
    Senator Begich. Great.
    General Hickey. I would say that the overall objective for 
VBA when it comes to claims adjudication is to get to no 
veteran waiting over 125 days and a 98 percent accuracy rate.
    I think if we can get there leveraging new processes, a 
good workforce well-trained in the new systems and a new 
technology approach, then I think no matter where you live you 
will be a satisfied veteran, and we will work hard to consider 
the needs of our rural vets in that respect.
    Senator Begich. Fantastic.
    The last thing, Mr. Muro, I know you are probably aware of 
this, but in Alaska we have two cemeteries, one in Sitka and 
one in Anchorage.
    The one problem with that is there is a lot of our northern 
region that is not connected really to Anchorage or Sitka so we 
are looking at a new facility in Fairbanks, and I do not know 
if you have already started some discussions in your current 
role with the State of Alaska.
    So I am curious. I wonder if you are aware of that or if 
you have started any discussions that you want to share or will 
put this on your list to kind of keep in mind.
    Mr. Muro. Thank you for that question, Senator Begich.
    Yes, I am. I work closely with Frank Salvas, our director 
of the Veterans Cemetery Grants Program. I know that the 
cemetery is on the list and he is working closely with the 
State to ensure we get a cemetery up there in Fairbanks.
    Senator Begich. Great. I know they are looking at the sites 
right now and trying to determine that. I just wanted to make 
sure you have that kind of on your radar. It is great to have 
Sitka. That takes care of southeast. Anchorage kind of takes 
south central.
    But we have another large military population, as you know, 
in the Fairbanks interior regions, and Fairbanks would be, 
obviously, an appropriate place.
    So thank you very much.
    Mr. Muro. You are welcome.
    Senator Begich. Thank you, Madam Chair. I have no other 
questions.
    Chairman Murray. All right.
    Thank you very much, General Hickey, Mr. Muro, for your 
full and open participation in today's hearing.
    Every organization needs a leader, and I am anxious to have 
permanent leadership at the top of both the VBA and the NCA. 
The VBA in particular is facing some real issues. We talked 
about a lot of them today that have to be addressed by 
permanent leadership as soon as possible.
    Before I adjourn the hearing, I do want to acknowledge Mike 
Walcoff, who has been at the helm of the VBA for over a year 
now as the Acting Under Secretary for Benefits. Mike knows what 
a tough job both General Hickey and Mr. Muro have in store for 
them. And he is in the audience today to lend them his support.
    Mr. Walcoff, if you want to stand, I just want to thank you 
for your service. I appreciate all you have done. [Applause.]
    I would ask that any Member who wishes to submit 
posthearing questions to General Hickey or Mr. Muro, do so by 
this Friday so that this Committee can move forward with the 
nomination process as soon as possible.
    With that, thank you very much to both of our witnesses 
today, and this hearing is officially adjourned.
    [Whereupon, at 11:24 a.m., the Committee was adjourned.]
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
